<html>
<title> - OVERSIGHT HEARING ON THE PUBLIC IMPACT OF CLOSING AMENITIES AT YOSEMITE NATIONAL PARK</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





     PUBLIC IMPACT OF CLOSING AMENITIES AT YOSEMITE NATIONAL PARK

=======================================================================

                           OVERSIGHT HEARING

                               before the

                      SUBCOMMITTEE ON PUBLIC LANDS

                      AND ENVIRONMENTAL REGULATION

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         Tuesday, July 9, 2013

                               __________

                           Serial No. 113-30

                               __________

       Printed for the use of the Committee on Natural Resources





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

81-895 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
















                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F. H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Tom McClintock, CA                   Jim Costa, CA
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Cynthia M. Lummis, WY                    CNMI
Dan Benishek, MI                     Niki Tsongas, MA
Jeff Duncan, SC                      Pedro R. Pierluisi, PR
Scott R. Tipton, CO                  Colleen W. Hanabusa, HI
Paul A. Gosar, AZ                    Tony Cardenas, CA
Raul R. Labrador, ID                 Steven A. Horsford, NV
Steve Southerland, II, FL            Jared Huffman, CA
Bill Flores, TX                      Raul Ruiz, CA
Jon Runyan, NJ                       Carol Shea-Porter, NH
Mark E. Amodei, NV                   Alan S. Lowenthal, CA
Markwayne Mullin, OK                 Joe Garcia, FL
Chris Stewart, UT                    Matt Cartwright, PA
Steve Daines, MT
Kevin Cramer, ND
Doug LaMalfa, CA
Jason T. Smith, MO

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON PUBLIC LANDS AND ENVIRONMENTAL REGULATION

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Peter A. DeFazio, OR
Louie Gohmert, TX                    Niki Tsongas, MA
Doug Lamborn, CO                     Rush Holt, NJ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Cynthia M. Lummis, WY                    CNMI
Scott R. Tipton, CO                  Pedro R. Pierluisi, PR
Raul R. Labrador, ID                 Colleen W. Hanabusa, HI
Mark E. Amodei, NV                   Steven A. Horsford, NV
Steve Daines, MT                     Carol Shea-Porter, NH
Kevin Cramer, ND                     Joe Garcia, FL
Doug LaMalfa, CA                     Matt Cartwright, PA
Jason T. Smith, MO                   Edward J. Markey, MA, ex officio
Doc Hastings, WA, ex officio

                                 ------                                


















                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, July 9, 2013............................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     1
        Prepared statement of....................................     2
    Mcclintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................     7
        Prepared statement of....................................     9

Statement of Witnesses:
    Asquith, Bob, Groveland, California..........................    39
        Prepared statement of....................................    40
    Brown, Wendy, Yosemite For Everyone..........................    14
        Prepared statement of....................................    16
    Costa, Hon. Jim, a Representative in Congress from the State 
      of California..............................................     3
        Prepared statement of....................................     5
    Garamendi, Hon. John, a Representative in Congress from the 
      State of California, Statement of..........................     6
    Hoss, Peter T., Author and Founding Member, Yosemite For 
      Everyone...................................................    27
        Prepared statement of....................................    28
    Jarvis, Jonathan B., Director, National Park Service, U.S. 
      Department of the Interior.................................    11
        Prepared statement of....................................    12
    Ouzounian, Brian, Co-Founder, Yosemite Valley Campers 
      Coalition..................................................    20
        Prepared statement of....................................    22

Additional materials submitted for the record:
    Miller, Hon. George, a Representative in Congress for the 
      State of California, Prepared statement of.................     4



 
OVERSIGHT HEARING ON THE PUBLIC IMPACT OF CLOSING AMENITIES AT YOSEMITE 
                             NATIONAL PARK

                              ----------                              


                         Tuesday, July 9, 2013

                     U.S. House of Representatives

       Subcommittee on Public Lands and Environmental Regulation

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:14 a.m., in 
room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop, McClintock, Lummis, 
Tipton, Costa, and Garcia.
    Mr. Bishop. The Chair notes the presence of a quorum, so 
the Subcommittee on Public Lands and Environmental Regulation 
is holding an oversight hearing today on the public impact of 
closing amenities at Yosemite National Park.
    Under the rules, the opening statements are limited to the 
Chairman and Ranking Member. However, I ask unanimous consent 
to include any other Member's opening statement in the hearing 
record if submitted to the clerk by the close of business 
today.
    [No response.]
    Mr. Bishop. Hearing no objections, that will be so ordered.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. With that, we are appreciative of the people 
who have come many miles to be with us here today, appreciative 
of having Director Jarvis with us at the same time. We are 
going to be talking about the potential loss of our recreation 
opportunities in Yosemite. Yosemite is actually the third 
national park we developed, although the second one was given 
back to the State of Michigan, where they are doing a marvelous 
job in handling it. Sometimes I think Yosemite would be better 
off in the State of California, because it was a State park 
before we took it over full-time, anyway.
    What we are talking about here today is, I think, a 
microcosm of a lot of the issues that we will be facing. The 
purpose of national parks: if they are not to be seen by 
people, do they have some kind of a purpose? And yet, in 
Yosemite, we have found what I think is pretty vivid evidence 
of the efforts to try and exclude people from being there.
    We were talking all the time about the need of having more 
visitors going to our national parks. And yet, if we make our 
parks not visitor-friendly, how can we expect ever to achieve 
that particular goal? This Subcommittee has had hearings over a 
variety of issues that deal with our Park Service. We have had 
a problem in Herrera Beutler's district with the local park 
manager who did things that were just stupid and hurt people, 
hurt the community. We had Joe Heck in here with a bill, the 
Park Service doing things that hurt a family, which can only be 
described as stupid. We have had hearings about the parks on 
the border, where the Border Patrol was inhibited by Park 
Service policy.
    This is another one in which we are looking at a policy 
toward Yosemite National Park which is unusual. We are looking 
at a policy to Yosemite National Park which occurred $200,000--
$200 million from the Federal Government after the great flood, 
and the money was not spent, as Congress intended, to rebuild 
and restructure Yosemite. It was done to actually go in the 
opposite direction.
    So, we will be looking here today and seeing if what the 
Park Service is doing at Yosemite is clearly intended to 
increase the visitation of the national parks. Or does it 
actually decrease the visitation of our national parks? Have we 
gone on a publicity binge after that horrific flood in Yosemite 
that discourages people from even thinking they can get into 
the park? And what are the impacts that it has had in other 
areas?
    So, I appreciate the park director being here. I hope he 
will address, hopefully, a wide variety of issues.
    [The prepared statement of Mr. Bishop follows:]
Prepared Statement of The Honorable Rob Bishop, Chairman, Subcommittee 
              on Public Lands and Environmental Regulation
    Today we will hear testimony on the potential loss of amenities and 
recreational opportunities in Yosemite National Park. Yosemite is one 
of the most popular national parks and was originally set aside by 
Abraham Lincoln. Yosemite has entertained millions of visitors since 
that time and has been a critical component of the local economy.
    I'm concerned that the direction the Park Service has taken with 
the Merced River Plan unnecessarily punishes visitors through measures 
designed to move Yosemite Valley to the direction of a wilderness area. 
As I understand it, Yosemite is already 95 percent designated 
wilderness. Yosemite Valley is a unique place, offering some of the 
most impressive scenery in the world. But now we are told that you may 
not be able to rent a raft, go on a horseback ride, or swim in a pool, 
because it may not be consistent with the values of the Merced Wild and 
Scenic River.
    I understand this issue has been going on for many years, and the 
courts have been heavily involved, but at some point common sense needs 
to prevail. How on earth can renting a raft harm the Merced River? Why 
are we protecting these rivers for if they cannot be enjoyed by the 
Americans that are paying for their protection?
    There is also a question of accountability. I'm aware the Merced 
River flooded in 1997 and did substantial damage to park facilities and 
infrastructure. Congress appropriated nearly $200 million to repair the 
damage. However, the Park Service took advantage of the crisis to push 
visitors out of the park. Popular campgrounds were not repaired; 
instead they were permanently ripped out in the name of river setbacks 
and riparian work. It may have taken some work, but the bathrooms that 
were washed away could have been replaced as easily as they were 
installed, campfires rings could have been constructed by Boy Scouts, 
and the camp sites could have been cleared with some brooms. Instead, 
the Park Service spent millions to tear these campsites out. The result 
is fewer recreational opportunities for families and the Americans that 
own and support national parks. That is no way to build a sustainable 
park constituency for the future.
    It seems to me that if someone is looking for an amenity free, 
human-free experience, they already have the other 95 percent of 
Yosemite to celebrate.
    I'd like to thank our witnesses, particularly those who have 
traveled across the country and Director Jarvis for accepting our 
invitation to participate today.
                                 ______
                                 
    Mr. Bishop. We also want to welcome not only Mr. 
McClintock, who is the sponsor of the area in which we are 
going, also Mr. Garamendi, who we are inviting to the panel--I 
will give him a chance to give an opening statement--and Mr. 
Costa, who is also sitting in today, and I appreciate him being 
here, and he is from the same area. And I will recognize him 
for an opening statement now, if we want to, and then I will 
also recognize Mr. McClintock and Mr. Garamendi for statements, 
if they would care to give those.
    Mr. Costa?

 STATEMENT OF THE HON. JIM COSTA, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Costa. Thank you very much, Mr. Chairman, and I thank 
the members of the Subcommittee here for giving me the 
opportunity and the honor to be a part of this morning's 
Subcommittee hearing.
    The importance of Yosemite National Park and the benefits 
that it provides as an icon of America's national park system, 
I think, is not to be understated. Wallace Stegner, I guess, 
put it best in the definitive series that many of us saw that 
Ken Burns did, that the national park systems reflect America 
at its best, not its worst. It is America's best idea, I think, 
hopefully, I got the quote correct.
    So we all have a personal affinity, in one way or another, 
if we grew up going with our parents to the parks. Both 
Yosemite and Kings Canyon National Park are, I like to say, in 
my back yard. Congressman McClintock has the honor of 
representing it now, but others have represented it over the 
years. And it is the stewardship that I think we all care 
about, and that is, therefore, the importance of today's 
hearing.
    From the towering granite of Half Dome to the water of the 
Nevada Falls and Vernal Falls, the giant sequoias of the 
Mariposa Grove, all of this is encompassed in the experience 
that people young and old alike, and everyone in between, 
benefit from when you go to Yosemite National Park.
    Next year, the national park system is celebrating the 
150th anniversary of President Lincoln's initial effort to 
protect the valley and the Mariposa Grove by signing the 
Yosemite Grant Act. Think about it, 150 years ago. In 2015 we 
are going to be celebrating the 150th anniversary of the 
designation of the park itself. And, with any incredible 
natural resource such as Yosemite, there is a fine line between 
celebrating its splendor, protecting its beauty for future 
generations, and, as the Chairman indicated, ensuring that 
Americans--Americans--have access to that incredible, natural 
wonderment of nature. And therein lies the conflict.
    Like many, I have been going to Yosemite Park since I was a 
kid. It is among the top five of visitations of all of our 
national parks in the country. And it is exacerbated by the 
fact that 3.9 million people that visited last year, 70 
percent--more than 70 percent--come between Memorial Day and 
Labor Day. So, when you have almost 4 million people, but over 
70 percent visit it between Memorial Day and Labor Day, that 
becomes a challenge. And it is further exacerbated by the fact 
that 80 percent of the visitors to Yosemite go to the valley 
floor.
    Yosemite National Park is one of the largest parks in the 
country. It is larger than the State of Rhode Island. But yet, 
the valley floor, where you have Half Dome, El Capitan, the 
falls, is 7 miles long and a mile in width. And there lies a 
further part of the puzzle that we are trying to deal with here 
this morning. There have been three efforts now that the 
National Park Service has encompassed to try to come up with a 
plan that reflects 21st century realities. And they have all 
been met with various additions and protests.
    What makes the Park Service, I think, job even more 
difficult is the lawsuits that have ensued, in terms of their 
ability to address these issues. I think what makes our park 
system one of the finest in the world is the open access it 
provides. The Yosemite plan that we are dealing with here today 
continues that same level of access, but it also attempts to 
address the challenges that I have just stated. Despite the 
high level of outreach the Park Service has attempted, we all 
know that no plan, including this plan, is perfect.
    As a result of that fact, I must commend Director Jarvis, 
who has put together a bipartisan group of Californians, and we 
wrote to the Director about certain aspects of the draft plan. 
To his credit, the Director has provided time for public input, 
they have taken additional time to meet directly to discuss our 
concerns. That interaction continues, and it must. However, 
given the complexity of the process, I think Director Jarvis 
and Superintendent Neubacher and the Yosemite team should be 
commended for trying to navigate this path and thread the 
needle, because that is what we are doing. We are not going to 
make everybody happy.
    The fact of the matter is that I think it is important to 
maintain biking activity, horse riding activity. Ice skating in 
the winter in the outdoors is one of the unique experiences of 
Yosemite National Park. But yet, there is a lottery system of 
people who compete to try to get a campsite along the Merced 
River between Memorial Day and Labor Day, because the demand is 
just so much greater than the available campsites.
    And so, Mr. Chairman, I am looking forward to the testimony 
here by my colleagues and by the witnesses that are on the 
panel. And I have a piece of legislation that I am going to 
plug unashamedly. It would add 1,600 acres to the park, as 
originally envisioned by John Muir. The inclusion of these 
lands within Yosemite, I think, is critical to saving money for 
local communities. It has strong bipartisan support by members 
of the State legislature. And we can talk later about that 
legislation.
    And in addition, I would like to request unanimous consent 
to submit a statement for the record by our colleague, 
Congressman George Miller, who I know views Yosemite National 
Park as one of his favorite places to visit. So without 
objection, I would like to make that motion.
    [No response.]
    Mr. Bishop. I am thinking about it.
    [Laughter.]
    Mr. Bishop. Without objection, so ordered.
    [The information submitted for the record by Mr. Costa 
follows:]
Prepared Statement of The Honorable George Miller, a Representative in 
                  Congress for the State of California
    Mr. Chairman, members of the Subcommittee, I appreciate the 
opportunity to submit written testimony on the subject of the National 
Park Service's (NPS) Merced River Plan in Yosemite National Park. For 
many years, I have personally enjoyed the spectacular views and 
incredible hikes throughout Yosemite National Park and I would like to 
offer my perspective to the Subcommittee during its discussion of this 
important issue.
    I believe that the ability to enjoy recreational activities in 
Yosemite Park is crucial not only for those that enjoy the park each 
year, but for the continuing preservation of the park for years to 
come. The Wild and Scenic River designation issued by Congress to the 
Merced River gives the National Park Service the important task of 
preserving the river's condition, as well as protecting and enhancing 
the unique values that made it worthy of the designation.
    The National Park Service's Merced River Plan is an important step 
in the effort to protect the environmental quality of the Merced River 
and Yosemite National Park. The current draft Merced River Plan 
represents an attempt to reach a compromise between all interested 
parties to ensure that the park's unique recreational opportunities 
remain available while the environmental quality of the park is 
maintained for the long term.
    As with any plan of this nature, the Park Service has had to 
carefully balance the interests of a wide range of stakeholders in 
developing a Merced River Plan that will achieve a number of economic 
and environmental goals. However, initial drafts of the Park Service's 
preferred plan raised some concerns that it would unduly limit some 
recreational activities that do not harm the Merced River. I was 
pleased that Director Jarvis agreed to extend the public comment period 
on the Plan after other Members of Congress and I expressed our 
concerns about whether the Plan might limit access to recreational 
activities in a letter sent to the agency.
    These activities continue to be very important to families across 
generations and help families and others introduce young children and 
first time visitors to a total recreational/outdoor experience in 
Yosemite. As the Park Service moves forward with enacting this Plan, I 
hope that there will be a serious commitment made by NPS to retain 
recreational activities that pose no harm to the Merced River but are 
important to many who visit Yosemite, such as biking, ice skating, and 
horseback riding. If this Committee and the Park Service work together 
constructively on this process, I believe that there is room to modify 
the proposed Plan to address the concerns of stakeholders who have been 
concerned about the restrictions placed on recreational stakeholders in 
the original preferred alternative.
    As the former chairman of the Natural Resources Committee, I fully 
appreciate the need to protect unique natural resources, but it should 
not be at the cost of recreational activities that do not pose a threat 
and instead are a part of the cherished legacy of Yosemite National 
Park. I hope that this Committee will work with the National Park 
Service to complete a final Merced River Plan that accomplishes these 
objectives. Thank you again for the opportunity to submit this 
testimony.
                                 ______
                                 
    Mr. Costa. Thank you. And thank you.
    [The prepared statement of Mr. Costa follows:]
  Prepared Statement of The Honorable Jim Costa, a Representative in 
                 Congress From the State of California
    Chairman Bishop, members of the Committee, and invited witnesses--
thank you very much for holding this hearing today.
    Yosemite National Park is an American icon. The towering granite of 
Half Dome, the rushing water of Nevada Fall and Vernal Fall, and Groves 
of giant sequoias in Mariposa Groves are literally the posters of 
America's Greatest Idea.
    Next year the national park is celebrating the 150th anniversary of 
President Lincoln's initial effort to protect the valley and Mariposa 
Grove by signing the Yosemite Grant Act. In 2015, we will celebrate the 
150th anniversary of the designation of the park itself.
    Like with any natural beauty, there is a fine line between 
celebrating its splendor and protecting the beauty for future 
generations. Sometimes we get that balance right and sometimes we have 
to continue working on that through trial and error.
    In the case of Yosemite, Yosemite Valley, and the Merced Wild and 
Scenic River--the National Park Service has been between the proverbial 
rock and a hard place. Reaching back to 1998, the effort to achieve 
this delicate balance has been contested and decided in the courts. 
Finally, in 2010, after two reviews by the 9th Circuit Court, the Park 
Service and park advocates settled on a path forward.
    The hearing today is looking at a working work product of that 
settlement agreement. I think it is important that we keep in mind that 
the process the Park Service undertook, and the parameters of their 
analysis, was carefully negotiated as part of this settlement 
agreement.
    Part of what makes our park system the finest in the world is the 
open access it affords Americans and those visiting America. The 
Yosemite Valley plan still offers this access. The question before us 
today is what is changing with amenities.
    A bi-partisan group of Californians wrote to Director Jarvis and 
raised issues we had with some aspects of the draft plan. We asked for 
additional time for public input. To his credit, Director Jarvis 
provided time for that public input then took the time to meet with us 
to discuss our concerns.
    I am encouraged by the direction the Park Service is going with the 
plan. It still needs some work and some community members need greater 
assurance that key amenities won't be lost. However, given the 
complexity of the process and the issues, I think Director Jarvis, 
Superintendent Neubacher, and the Yosemite team should be commended.
    I would be remiss if I did not take this opportunity to also 
comment on the need to make a modest and popular expansion of the park.
    Thank you again and I look forward to your testimony.
                                 ______
                                 
    Mr. Bishop. I appreciate Mr. Costa for being here, and his 
comments. Because, after all, when one thinks of outdoor ice 
skating, one thinks of California.
    [Laughter.]
    Mr. Bishop. That----
    Mr. Costa. I think of Utah, as well.
    Mr. Bishop. I am going to turn to Mr. Garamendi for his 
statement, if I could, and then Mr. McClintock, I will have you 
batting clean-up. Thank you.

   STATEMENT OF THE HON. JOHN GARAMENDI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Garamendi. Mr. Chairman, thank you. It is always a 
privilege and, indeed, an honor to be in this Committee room 
and to, in this case, be testifying on an extremely important 
piece of work that has been done.
    This plan really is the culmination of some 30 years of 
effort to try to figure out how to, as Mr. Costa said, position 
one of the greatest amenities in this world, Yosemite National 
Park, for the 21st century and all the challenges that it has. 
My first experience at this was at the age of 7, at a time when 
there were probably no more than 12--actually, about 10 
million--people living in California. Today there is 35 
million. And the pressure on this park is extraordinary.
    The Park Service, for these 30 years, has been trying to 
balance two very, very important goals: the preservation of the 
natural wonder of Yosemite Valley and Yosemite Park with the 
public's access to those extraordinary natural wonders. This 
effort, nearly completed, should be pushed forward.
    There are undoubtedly conflicts. I was in many of those 
conflicts in the mid-nineties when I was deputy secretary and 
had specific responsibilities following the flood during that 
period to try to figure out what to do. Legislation was passed, 
a lot of money was appropriated. And I will tell you that money 
was well spent on providing access and dealing with the 
disposal of human waste in the valley: roads, sanitation 
systems, and the like, plus many other things. Turned out to be 
far more expensive than anticipated. I don't believe any of 
that money was wasted.
    Where are we today? We have got to push this thing forward. 
We have to complete the process of planning, we have to 
complete this particular effort. That has been an extraordinary 
amount of work. It has been expensive. It has been a long-time, 
and it has taken many, many public hearings, more than 60, and 
I believe has resulted in a plan that is basically quite good. 
It does balance the natural amenities of the park, particularly 
the valley. It does provide a lot of access. It will meet the 
needs of the natural environment and the ability of visitors to 
see the valley floor.
    It also promotes activities outside of the valley, which is 
extremely important. It was mentioned, the giant sequoias, the 
upper areas of the valley, which I have had the pleasure of 
hiking and fishing, in the upper regions of the park. And by 
providing access to those and encouraging people to go there, 
it is very important. Also, it meets the needs of the 
surrounding communities, which literally depend almost entirely 
upon this park for their economic viability and livelihoods.
    There are some issues that remain, and I think those can be 
worked out. Horses in the valley. Yes, there will be horses in 
the valley, both private and public access to the horses. 
Bikes, a lot of conflict or questions about bikes. I mean we 
are really down to minutia here when we are talking about where 
the bike racks are going to be. But that is really where we are 
here. I believe that there will be, at the end of this process, 
the opportunity for people to rent bikes in the valley. They 
may not be next to the river, but they will be there.
    Rafting? There will be rafting. Whether there will be 
commercial rafting in the valley or outside the valley remains 
to be determined. But we are really down to something really 
quite small overall. Ice skating. Yes, the ice skating rink 
needs to move. It is outdated. And it needs to be replaced or 
not at all. There is a quite good possibility that there will 
be ice skating in the valley with the temporary rinks such as 
we now find in almost every urban mall in America.
    So, there are possibilities here to deal with the remaining 
issues. And if we are down to just horses, bikes, rafting, and 
ice skating, wow. A lot of progress has been made. I remember 
when you couldn't even decide whether there would be buses in 
the valley. But they are now in place. I want to commend the 
Park Service for their efforts, for moving this thing along, 
and for all the people that have spent a lot of time and a lot 
of effort. And I really urge this Committee to allow the Park 
Service to get on with it and to move this process forward, so 
that we can have this finally completed in its current state, 
knowing that there will be other questions for next 
generations.
    Thank you for the privilege of being with you.
    Mr. Bishop. Thank you, Representative Garamendi, for 
joining us. Let's conclude this last informal first panel of 
members with Representative McClintock. If you would, please.

   STATEMENT OF THE HON. TOM MCCLINTOCK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McClintock. Thank you, Mr. Chairman. I want to thank 
you for arranging this hearing in response to the public outcry 
that has been raised against the proposals by the National Park 
Service that would radically alter the purpose, nature, and use 
of Yosemite National Park. The NPS proposal would remove long-
standing tourist facilities from Yosemite Valley, including 
bicycle and raft rentals, snack facilities, gift shops, 
horseback riding, the ice skating rink at Curry Village, the 
arts center, the grocery store, swimming pools, and even the 
valley's iconic and historic stone bridges. These facilities 
date back generations, and they provide visitors with a wide 
range of amenities to enhance their stay at and their enjoyment 
of this world-renowned national park.
    Now, the Park Service says this is necessary to comply with 
a settlement agreement reached with the most radical and 
nihilistic fringe of the environmental left. It seeks to use 
the Wild and Scenic River designation of the Merced River as an 
excuse to expel commercial enterprises and dramatically reduce 
the recreational amenities available to park visitors.
    Yet, as we will hear from renowned Yosemite historian Peter 
Hoss, that agreement imposes no requirement on the Government 
to do anything more than adopt a plan consistent with current 
law. And current law is explicit: the 1864 act establishing the 
park guarantees its use for public recreation and resort. The 
1916 Organic Act creating the national parks explicitly 
declares their purpose to be for the public enjoyment of the 
public lands. And the Wild and Scenic River Act contemplated no 
changes to the amenities at Yosemite. So says its author, 
Democratic Congressman Tony Coelho. Yet the Park Service 
insists that the law compels these radical changes. It does no 
such thing.
    And in a let-them-eat-cake moment, the Park Service assures 
us that, although bicycle, raft, and horse rentals will be 
banned, people are free to bring their own. Well, what a relief 
that is going to be to a paralyzed teenager whose only access 
to the park is from horseback. All you have to do is buy your 
own horse and bring it to the park. Thanks a lot.
    And since environmental protection is the stated 
justification, I must ask. What is the environmental difference 
between a rented bicycle and a privately owned bicycle? What is 
the environmental difference between a rented raft and a 
privately owned raft, except rafts--a rented raft is operated 
under close supervision of experts. Why would the Park Service 
demand the removal of the swimming pools at the Ahwahnee and 
Yosemite lodges that have no impact on the Merced River, except 
to give parents a safer place for their children to go swimming 
than the river's treacherous waters?
    Ninety-five percent of the park is already in wilderness. 
Yet the overwhelming majority of park visitors come to that 5 
percent where amenities are available for public recreation, 
where they can rent a bike, where they can stop at the snack 
shop to get ice cream cones for the kids, where they can pick 
up souvenirs at the gift shop, where the family can cool off at 
a lodge swimming pool. And it is precisely these pursuits that 
the National Park Service would destroy.
    We are assured that in some cases they will merely move 
them to other locations in the park away from the valley floor. 
Well, understand what that means. They will move the tourist 
facilities away from the tourists. Wawona, for example, has 
often been mentioned as an alternative site. Wawona is more 
than 20 miles from Yosemite Valley. We are assured that the 
plan will increase campsites and parking. Yet, as we will hear 
from the Yosemite Valley Campers Coalition, the plan actually 
represents a radical reduction in parking and campsites 
measured from pre-flood levels.
    Congress appropriated millions of dollars to restore these 
facilities. The money was spent, but the facilities were never 
replaced. And the NPS would now lock in not only dramatically 
lower numbers, but would diminish the desirability of the 
campsites which remain. Now, much has been said of the 
competition for campsites. Perhaps the reason for the shortage 
is because the number of campsites has been reduced by nearly 
half on the valley floor from pre-flood levels, and overnight 
lodging by a third.
    Yosemite National Park was set aside in 1864 by legislation 
signed by Abraham Lincoln for the express purpose of ``public 
use resort and recreation.'' For more than a century, this 
measure was honored by the park stewards. But no more. This 
plan would radically alter the visitor-friendly mission of the 
park with the new elitist maxim, ``Look, but don't touch. 
Visit, but don't enjoy.''
    The public is crying out for congressional intervention, 
Mr. Chairman, and I thank you for taking the first step toward 
saving Yosemite National Park for the public use, resort, and 
recreation that was promised to the American people nearly 150 
years ago.
    [The prepared statement of Mr. McClintock follows:]
Prepared Statement of The Honorable Tom McClintock, a Representative in 
                 Congress From the State of California
    I want to thank Chairman Bishop for arranging this hearing in 
response to the public outcry against proposals by the National Park 
Service that would radically alter the purpose, nature and use of 
Yosemite National Park. The NPS proposal would remove long-standing 
tourist facilities from Yosemite Valley, including bicycle and raft 
rentals, snack facilities, gift shops, horseback riding, the ice-
skating rink at Curry Village, the art center, the grocery store, 
swimming pools, and even the valley's iconic and historic stone 
bridges. These facilities date back generations and provide visitors 
with a wide range of amenities to enhance their stay at--and their 
enjoyment of--this world-renowned national park.
    The Park Service says this is necessary to comply with a settlement 
agreement reached with the most radical and nihilistic fringe of the 
environmental Left. It seeks to use the Wild and Scenic River 
designation of the Merced River as an excuse to expel commercial 
enterprises and dramatically reduce the recreational amenities 
available to park visitors.
    Yet as we will hear from Yosemite historian Peter Hoss that 
agreement imposes no requirement on the Government to do anything more 
than adopt a plan consistent with current law. And current law is 
explicit: the 1864 act establishing the park guarantees its use for 
public recreation and resort; the 1916 Organic Act creating national 
parks explicitly declares their purpose to be the public enjoyment of 
the public lands, and the Wild and Scenic River Act contemplated no 
changes to the amenities at Yosemite--so says its author, Democratic 
Congressman Tony Coelho. Yet the Park Service insists that the law 
compels these radical changes. It does no such thing.
    In a ``let them eat cake'' moment, the Park Service assures us that 
although bicycle, raft and horse rentals will be banned, people are 
free to bring their own. What a relief that will be to a paralyzed 
teenager whose only access to the park is from horseback--all you have 
to do is buy your own horse and bring it to the park!
    And since environmental protection is the stated justification, I 
must ask: what is the environmental difference between a rented bicycle 
and a privately owned bicycle? What is the environmental difference 
between a rented raft and a privately owned raft, except that the 
rented raft is operated under the close supervisions of experts? Why 
would the Park Service demand the removal of the swimming pools at the 
Ahwanee and Yosemite Lodge that have no impact on the Merced River 
except to give parents a safer place for their children to go swimming 
than the River's treacherous waters?
    Ninety five percent of the park is already in wilderness. Yet the 
overwhelming majority of park visitors come to that 5 percent where 
amenities are available for public recreation: where they can rent a 
bike; where they can stop at the snack shop to get ice-cream cones for 
the kids; where they can pick up souvenirs at the gift shop; where the 
family can cool off at a lodge swimming pool. And it is precisely these 
pursuits that the National Park Service would destroy.
    We're assured that in some cases they will merely ``move'' them to 
other locations in the park away from the Valley floor. Understand what 
that means: they will move tourist facilities away from the tourists. 
Wawona, for example has often been mentioned as an alternative site. 
Wawona is more than 20 miles from Yosemite Valley!
    We're assured that the plan will ``increase'' campsites and 
parking. Yet as we will hear from the Yosemite Valley Campers 
Coalition, the plan actually represents a radical reduction in parking 
and campsites measured from pre-flood levels. Congress appropriated 
millions of dollars to restore these facilities--the money was spent, 
but the facilities were never replaced. And the NPS would now lock in 
not only dramatically lower numbers, but would diminish the 
desirability of the campsites which remain.
    Yosemite National Park was set aside in 1864 by legislation signed 
by Abraham Lincoln for the express purpose of ``public use, resort and 
recreation.'' For more than a century, this mission was honored by the 
park's stewards. But no more. This plan would radically alter the 
visitor-friendly mission of the park with a new, elitist maxim: ``Look, 
but don't touch; visit, but don't enjoy.'''
    The public is crying out for Congressional intervention, and I 
thank you, Mr. Chairman, for taking the first step toward saving 
Yosemite National Park for the ``public use, resort and recreation'' 
promised to the American people nearly 150 years ago.
                                 ______
                                 
    Mr. Bishop. Thank you for your testimony. Those bells are 
not for you. The House is in recess. I apologize.
    With that, I appreciate the Members--and their comments--
that are here. Let me call up the first panel--or the second 
panel, actually, up here. We are appreciative of having 
Director Jon Jarvis of the National Park Service here with us; 
Wendy Brown, who is the Chairman of Yosemite for Everyone; 
Brian Ouzounian--I hope I said that properly--who is the 
Yosemite Valley Campers Association Cofounder; and two 
representatives who have come here from California--from 
Mariposa, Peter Hoss, and from Groveland, Bob Asquith. I hope I 
pronounced that one accurately, as well.
    But if we could have you come to the panel as we are 
getting situated, please take a seat there. And as we are 
getting there, obviously, your written testimony has already 
been received and is part of the record. This is the oral 
testimony that is in addition to the written testimony you have 
submitted. We would ask you to limit the testimony to the 5 
minutes that we have available.
    And you have the clock in front of you. For those who have 
not been with us before, when the clock starts you have the 
green light in front of you. As soon as you see the yellow 
light come on you have got 1 minute to finish. And the red 
light means what the red light means. Please quit, otherwise 
Bryson will throw things at you. And he has got a good aim from 
that position.
    So, we appreciate you all being here. We will start with 
Director Jarvis, and then just go down the row, if that is OK.
    Director?

   STATEMENT OF JONATHAN B. JARVIS, DIRECTOR, NATIONAL PARK 
            SERVICE, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Jarvis. Thank you, Mr. Chairman and members of the 
Committee. I appreciate this opportunity to discuss the 
management of Yosemite National Park, and specifically the 
Merced Wild and Scenic River draft Comprehensive Management 
Plan and Environmental Impact Statement.
    As was mentioned, set aside by Abraham Lincoln in 1864 for 
its exquisite natural and cultural resources, Yosemite National 
Park is a crown jewel in the National Park System. The park, 
set in the Sierra Nevada Mountain Range, includes a glacially 
carved valley with granite cliffs, spectacular water falls, and 
gigantic sequoia trees. It hosts over 4 million visitors 
annually, who engage in many forms of recreation. The economic 
importance of this national park is reflected in the nearly 
$400 million in tourist-related dollars the park generates to 
the regional and local economies of California.
    The Merced River and Yosemite Valley corridor provides a 
variety of opportunities to view the valley's magnificent 
scenery and to travel along the river and interact directly 
with it. The most common visitor activities in the valley 
include scenic viewing, day hiking, wildlife viewing, 
picnicking, creative arts, camping, ranger-led programs, 
bicycling, floating, nature study, and rock climbing. Both day 
use and overnight camping and lodging are available, and 
campground sites in Yosemite are in very high demand, and often 
filled to capacity.
    The Merced River runs through the heart of Yosemite Valley. 
In 1987 Congress and the President recognized the importance of 
this free-flowing river, and designated 122 miles of it as a 
Wild and Scenic River, 81 miles of which run through Yosemite 
Valley, or Yosemite National Park. That act required that the 
NPS issue a comprehensive Wild and Scenic River Management Plan 
in order to protect and enhance the outstandingly remarkable 
values for which the river was designated.
    The planning process we are here to discuss today is the 
third management plan the NPS has prepared for the Merced Wild 
and Scenic River within the park. In 2009 the NPS settled a 
long-running lawsuit challenging the adequacy of the two prior 
versions of the Merced River plans, one prepared in 2000 and a 
second one in 2005. This third planning process, which began in 
June of 2009, reflects the terms of the 2009 settlement 
agreement. It represents a large amount of collaboration among 
the public, research scientists, park partners, and park staff. 
The alternatives included in this new draft Merced River Plan 
bring forward the best science and stewardship to set 
management direction for the river corridor for the next 20 to 
30 years.
    Yosemite Valley is narrow, with an area that is limited by 
a river corridor in the center and the known hazard of rock 
falls on either side. The river plan had to consider these 
limits when analyzing space allocation for structures and 
facilities. As a safety measure for those who visit and work in 
Yosemite, structures, cabins, and campsites that have a high 
risk of being affected by rock fall would be phased out or 
relocated.
    The draft preferred alternative was released for public 
review and comment on January 8 of this year. Extensive public 
outreach was conducted by the park, with over 60 public 
meetings. The park received 30,000 comments during an extended 
comment period. These comments will be thoroughly considered 
and evaluated.
    The great preponderance of attention during the comment 
period focused on Yosemite Valley. In particular, many 
expressed concern about the possible elimination of some 
commercial recreation activities such as bike and raft rentals, 
ice skating, horseback day rides, and swimming pools. In some 
instances, these commercial services may be reasonably 
relocated outside the river corridor, but remain in Yosemite 
Valley or in other locations inside or outside of the park, and 
available to park visitors. It is important to note that no 
reductions are proposed in any alternative for the private use 
of horses, bikes, or rafts.
    From my years as the regional director in the Pacific West 
region, I know that every planning process in Yosemite is 
challenging, because people care so passionately about the 
park. I also know that we share two goals. First, to ensure 
that the public will continue to be able to enjoy the variety 
of recreational opportunities that the river and its 
surrounding areas offer. And second, to preserve the resources 
of one of America's 203 Wild and Scenic Rivers, so it will be 
there for our children and our grandchildren to appreciate.
    Mr. Chairman, this concludes my statement, and I am glad to 
respond to any questions.
    [The prepared statement of Mr. Jarvis follows:]
   Prepared Statement of Jonathan B. Jarvis, Director, National Park 
                               Service, 
                    U.S. Department of the Interior
    Mr. Chairman and members of the Committee, I appreciate this 
opportunity to appear before you today to discuss the management of 
Yosemite National Park and specifically, the Merced Wild and Scenic 
River Draft Comprehensive Management Plan and Environmental Impact 
Statement (Draft MRP).
    Set aside by Abraham Lincoln on June 30, 1864, for its exquisite 
natural and cultural resources, Yosemite National Park is a crown jewel 
of the National Park System. The park, set in the Sierra Nevada 
mountain range, includes a glacially carved valley with granite cliffs, 
spectacular waterfalls, and gigantic sequoia trees, and hosts over 4 
million visitors annually who engage in many forms of recreation. Its 
preservation is a testament to America's commitment ``to conserve the 
scenery and the natural and historic objects and the wild life therein 
. . . unimpaired for the enjoyment of future generations.'' The 
importance of this magnificent national park is reflected in the nearly 
$400 million in tourism-related dollars the park generates to the 
regional and local economies of California. It is also reflected in the 
intense interest in any planning process by the public.
    The Merced River and Yosemite Valley corridor, within Yosemite 
National Park, provides for a variety of opportunities to view the 
valley's magnificent scenery and to travel along the river and interact 
directly with it. The most common visitor activities in Yosemite Valley 
include scenic viewing, day hiking, wildlife viewing, picnicking, 
creative arts, camping, ranger-led programs, bicycling, floating, 
nature study, and rock climbing. Both day-use and overnight camping and 
lodging are available, and campground sites in Yosemite Valley are in 
very high demand and often fill to capacity.
    The Merced River runs through the heart of Yosemite Valley. In 
1987, through the enactment of Pub. L. 100-149, Congress and the 
President recognized the importance of this free-flowing river and 
designated 122 miles of it as a Wild and Scenic River, 81 miles of 
which course through Yosemite National Park. That act required that the 
National Park Service (NPS) issue a Comprehensive Wild and Scenic River 
Management Plan in order to protect and enhance the outstandingly 
remarkable values for which the river was designated.
    The planning process we are here to discuss today, the Draft MRP, 
is the third management plan the NPS has prepared for the Merced Wild 
and Scenic River within Yosemite National Park. In 2009, the NPS 
settled a long-running lawsuit challenging the adequacy of the two 
prior versions of the MRP (prepared in 2000 and 2005). Consistent with 
the 2009 Settlement Agreement, the NPS is working on completing a new 
comprehensive management plan for the Merced Wild and Scenic River.
    This most recent planning process for the Draft MRP began with 
public scoping on June 30, 2009, and reflects the terms of the 2009 
Settlement Agreement. It represents a large amount of collaboration 
among the public, research scientists, park partners and park staff. 
The alternatives included in the Draft MRP bring forward the best 
science and stewardship to set management direction for the river 
corridor for the next 20-30 years.
    The NPS must consider many factors in completing the MRP. 
Interagency guidelines for implementing the Wild and Scenic Rivers Act 
direct that, whenever feasible, major public use facilities are to be 
located outside the river corridor. In addition, the U.S. Court of 
Appeals for the Ninth Circuit, in its March 2008 opinion, instructed 
the park to ensure that the kinds and amounts of use allowed in the 
corridor were consistent with the protection of outstandingly 
remarkable values. It also stated that there was ``no authority for a 
presumption that holding facility levels to those in existence in 
1987'' was protective of outstandingly remarkable values or satisfied 
the user capacity component of the Comprehensive Management Plan. The 
Court of Appeals pointed to the existence of several commercial 
activities and equated them with ``degradation.'' To address the 
Court's concerns, park management needed to carefully evaluate all 
facilities and services to determine the feasibility of locating them 
outside of the river corridor.
    Yosemite Valley is narrow with an area that is limited by a river 
corridor in the center and the known hazard of rock falls on either 
side. The Draft MRP had to consider these limits when analyzing space 
allocation for structures and facilities. As a safety measure for those 
who visit and work in Yosemite Valley, structures, cabins, and 
campsites that have a high risk of being affected by rock-fall would be 
phased out or relocated.
    The draft preferred alternative, which was released for public 
review and comment on January 8, 2013, represents a balance between 
resource protection and providing for visitor use and access. Extensive 
public outreach was conducted by the park that included 66 public 
meetings, 20 press releases, 12 webinars, and a dedicated Web site. The 
public comment period, which ended on April 30, 2013, was 112 days--52 
days longer than required by NPS policy. During that period, the park 
received nearly 30,000 public comments. Areas of interest raised by the 
public include visitor use management in Yosemite Valley, 
transportation, ecological restoration, camping, other recreational 
opportunities, infrastructure and development (both visitor and 
administrative), and user capacity.
    The Draft MRP analyzes a wide range of alternatives. The range of 
alternatives presented would improve the condition of sensitive meadows 
and archeological resources, while retaining many of the historical 
amenities and recreational experiences for visitors to Yosemite Valley. 
The Draft MRP incorporates a robust monitoring program to evaluate the 
success of restoration goals and adapt management actions accordingly.

    Overall, the Draft MRP will:

    <bullet> Reaffirm the Merced Wild and Scenic River's boundaries and 
            segment classifications.
    <bullet> Identify the outstandingly remarkable values that are the 
            unique, rare, or exemplary river-related characteristics 
            that made the Merced River a Wild and Scenic River.
    <bullet> Document baseline conditions for the Merced River's 
            outstandingly remarkable values, water quality, and free-
            flowing condition and identify the management actions 
            necessary to protect and enhance them.
    <bullet> Develop a program of ongoing studies and monitoring to 
            ensure management objectives are met.
    <bullet> Establish a user-capacity program that addresses the kinds 
            and amounts of use that the river corridor can sustain 
            while protecting and enhancing river values.
    <bullet> Revise Yosemite's 1980 General Management Plan to be 
            consistent with the 2013 MRP.

    The Draft MRP's preferred alternative proposes to:

    <bullet> Preserve access to Yosemite Valley at current levels 
            (allowing peak visitation to reach roughly 20,000 people 
            per day) through private vehicles (primarily), transit, and 
            commercial tour bus access.
    <bullet> Increase camping availability by 174 new camp sites in 
            Yosemite Valley.
    <bullet> Maintain lodging availability at the present level.
    <bullet> Preserve an extraordinary array of recreation 
            opportunities including bicycling, rafting, private stock 
            use, hiking, climbing, and camping both within and outside 
            of the river corridor.
    <bullet> Restore more than 200 acres of meadow and riparian 
            habitat.
    <bullet> Outline a long-term program to reverse site-specific 
            impacts from past patterns of visitor use.
    <bullet> Remove and/or redesign facilities that are subject to 
            flooding and rock fall.
    <bullet> Substantially reduce traffic congestion and crowding 
            through organized and efficient parking for day-use 
            visitors and improvements to the circulation system within 
            Yosemite Valley. The improved circulation system would 
            address critical intersections with either a pedestrian 
            underpass or re-routed segments of roadways coupled with 
            traffic-calming design.
    <bullet> Maintain Yosemite's contribution to local and regional 
            economies.

    We believe that the Draft MRP's preferred alternative would retain 
the essence of Yosemite Valley while ensuring that the experiences 
enjoyed by generations of families are sustained over time. Visitors 
would continue to have access to Yosemite Valley by private vehicle 
while enjoying increased public transit and expanded shuttle bus 
service that leads to decreased traffic congestion. The heart of 
Yosemite Valley would be reclaimed for visitor use and enjoyment, 
creating a sense of arrival with the redesign of the primary day-use 
parking area and the relocation of commercial and administrative 
functions. Recommendations from professional traffic engineers would be 
implemented to improve circulation, reduce congestion, and provide for 
a higher quality visitor experience. We feel that these improvements 
can be attained while increasing protection for the Wild and Scenic 
River corridor.
    While the Draft MRP encompasses 81 miles of the Merced Wild and 
Scenic River within Yosemite National Park, the greatest preponderance 
of attention and comments generated during the public comment period 
were focused on Yosemite Valley. In particular, many expressed concern 
about the possible elimination of some commercial recreation activities 
such as bike and raft rentals, ice skating, horseback day-rides and 
swimming pools. As Yosemite National Park proceeds to complete the 
final MRP, all comments about recreational uses and other aspects of 
the plan will be thoroughly considered and evaluated. In some 
instances, these commercial services may be reasonably relocated 
outside the river corridor but remain in Yosemite Valley, or in other 
locations inside or outside of the park, and available to park 
visitors. It is important to note that no reductions are proposed in 
any alternative for the private use of horses, bikes, and rafts.
    Due to the extensive nature of the comments and extraordinary 
importance of Yosemite to the American public and the region, the park 
is seeking a short extension of the court-ordered deadline to produce a 
Record of Decision. We anticipate the publication of the final MRP in 
the late fall of 2013. After the final MRP is released to the public, 
the park will host a public meeting to present changes between the 
draft and final plans.
    From my years as the Regional Director for the Pacific West Region, 
I know that every planning process in Yosemite is challenging because 
people care so passionately about the park. I also know that we all 
share two goals: First, to ensure that the public will continue to be 
able to enjoy the variety of recreational opportunities that the river 
and its surrounding areas offer; and second, to preserve the resources 
of one of America's 203 Wild and Scenic Rivers so it will be there for 
our children and grandchildren to appreciate.
    Mr. Chairman, this concludes my statement. I would be pleased to 
respond to any questions you or the other members of the committee may 
have.
                                 ______
                                 
    Mr. Bishop. Thank you, Director. I appreciate you being 
here.
    We will now turn to Wendy Brown, Yosemite for Everyone, 
please. You have 5 minutes. And would you make sure you are on, 
and that mic is pulled right up to your face, so we can hear 
you?

        STATEMENT OF WENDY BROWN, YOSEMITE FOR EVERYONE

    Ms. Brown. Thank you. Thank you for this opportunity to 
testify on this most important matter. I am a founder of 
Yosemite For Everyone. We are regular folks who believe in a 
common-sense approach to preservation, where visitors' use is 
balanced with protecting the environment.
    We are concerned about the future of our local economy if 
the Merced River Plan is implemented. It will eliminate most of 
the traditional recreational activities, facilities, and 
services that have been enjoyed for many years. What affects 
Yosemite National Park affects the outlying communities in 
regards to their economy.
    I am appearing before you today to ask you to direct the 
National Park Service to take these actions: develop a plan 
that retains the activities they are proposing to eliminate 
under any of the action alternatives; exclude Yosemite Valley 
from the Wild and Scenic Rivers Act.
    Chapter 5, page 21 of the Environmental Impact Statement 
says, ``The Wild and Scenic Rivers Act provides for existing 
structures as of designation to remain.'' Private use of 
horseback riding, rafting, and cycling will be allowed. 
Yosemite draws visitors from all continents, none of whom can 
bring their own bicycle, horse, or raft. The management 
proposal is unfair to international visitors, much less 
citizens from across the Nation who may visit once, only to 
find they have no access beyond the roadway. Alternatives two 
through six are focused on self-reliant, nature-based 
experience. The plan discriminates against minorities, those of 
modest means, the very young, the elderly, and the disabled.
    For example, many visitors are unable to hike the trails, 
due to disabilities. Many lack outdoor experience and have 
concerns for their safety. And many visitors are unwilling to 
venture out on their own. Most people coming to the park cannot 
provide these services for themselves, the result being less 
visitation due to lack of recreational activities. Visitor 
services should remain, because their removal has no direct 
benefit to outstanding river values, the activity is not 
harmful to the river. Yet, in the proposed management plan, 
somehow a raft brought in by a visitor is good, but a raft 
rented by a visitor is bad. It is not required by the Wild and 
Scenic Rivers Act, and the public greatly values these 
services.
    The Wild and Scenic Rivers Act has three designations: 
wild, scenic, and recreational. The portion of the river that 
runs through Yosemite is designated recreational. However, the 
Park Service is treating it like it is wild by creating a river 
corridor, and turning everything within the corridor back into 
wilderness. Yosemite Valley is not, and never has been a 
wilderness. Activities existed in the valley before the Merced 
River was designated. It was not the original intent of the 
Wild and Scenic Rivers Act to remove almost all recreation and 
services within the river corridor. It was put in place to 
prevent developers from building dams on the river. The grant 
of 1864 should take precedence over the 1987 designation of the 
Merced River.
    None of the activities slated for removal degrade the river 
in any way. In chapter 7 of the Environmental Impact Statement, 
a chart shows that the Curry Village raft rental, bike rental, 
the Ahwahnee swimming pool, and the horseback day rides in 
Yosemite Valley do not affect the river values, and there is no 
required action or mitigation measures. In chapter 5, page 23, 
``Protecting and Enhancing Free Flowing Condition,'' the Free 
Flowing Condition of the Merced River is determined to be 
absent of adverse effects, degradation, and management 
concerns. The overall water quality of the river was 
exceptionally high, with relatively few impacts caused by 
development and visitor use.
    The National Park Service is, on its own, taking the act 
and turning it into something that Congress never intended for 
either the Wild and Scenic Rivers Act or Yosemite. The American 
river, through our State capital, Sacramento, is a Wild and 
Scenic River. Does this mean that the Wild and Scenic Rivers 
Act requires their bridges to be removed and their commercial 
activities to be curtailed?
    Parking and traffic congestion in Yosemite Valley is 
another issue. Since 1980 and especially after the 1997 flood, 
the Park Service incrementally removed parking places, creating 
some of their own traffic problems. There were estimates of 
3,000 to 6,000 fewer parking spaces. And they should be using 
the pre-1997 flood numbers as a baseline to accurately gauge 
what is added and what is being taken away. Limiting access to 
fix a problem is not the answer.
    The Merced River plan will also be detrimental to a vast 
number of people. Many jobs will be threatened, not just in 
Yosemite and the gateway communities, but to the Central Valley 
and beyond. This will have negative economic impacts to other 
businesses, as well as lessening local, State, and Federal 
taxes. It felt like the Park Service had already made up their 
minds and was just going through the motions, and the outreach 
was feeble, at best. A large number of citizens are opposed to 
the Merced River plan.
    The Park Service has taken the Wild and Scenic Rivers Act 
too far. It will change the way visitors experience Yosemite. 
Please take steps to ensure that traditional, time-honored 
experiences will continue in Yosemite National Park for 
generations to come.
    Thank you for your consideration.
    [The prepared statement of Ms. Brown follows:]
        Prepared Statement of Wendy Brown, Yosemite For Everyone
    I am here to provide information to the Committee on the public 
impacts of closing amenities at Yosemite National Park. I am an 
official representative of Mariposa, authorized by the community to 
speak for them, and many more like us in and around Yosemite National 
Park. I am a founder of Yosemite For Everyone. We are regular people 
who have joined together who believe in a common sense approach to 
preservation where visitor use is balanced with protecting the 
environment. We are horsemen, past park employees, a builder, hikers, 
campers, business owners, retired Yosemite Magistrates, and attorneys. 
I am also a member in good standing in The Mariposa Mountain Riders, 
Backcountry Horsemen of California, and the Mariposa County Arts 
Council. I am an outdoor enthusiast, a horse owner, and stock user and 
have a good understanding of our public lands and Yosemite National 
Park. Through the years I have spent quality time with family and 
friends in Yosemite. I have enjoyed personally most of the recreational 
activities, camping, and amenities that the park offers. I am a cowboy 
poet. I published my book of original cowboy poetry ``Mountain 
Majesty'' in 2011. For over 38 years I have been employed at a family 
owned and operated restaurant in downtown Mariposa. During my 
employment I served visitors from all over the world that were coming 
to visit Yosemite. I enjoy telling them of all the things they can see 
and do in the park, what amenities are offered, and directions to get 
where they want to go. Over the span of four decades the restaurant 
struggled through many catastrophic events, such as floods, rock 
slides, and wildfires that closed the ``all weather highway'' to 
Yosemite for extended periods of time. All of this has put me in close 
contact with the citizens of our small gateway community of Mariposa. 
What affects Yosemite National Park absolutely affects the outlying 
communities in regards to their economy, employment, and visitor 
experience.
    Our citizens, local merchants, and those employed by them are 
concerned about their futures and the future of our community if any of 
the proposed Alternatives, except the No Action Alternative 1, of the 
Merced River Plan are implemented. Alternatives 2-6 will be remove and 
eliminate almost all of the traditional, historical, recreation 
activities, facilities and services that have been enjoyed by visitors 
to the park for 150 years. I am appearing before you today to ask you 
to direct the National Park Service to take these actions:

    <bullet> Develop a Plan that retains the activities they are 
            proposing to eliminate under any of the Action 
            Alternatives. Only the No Action Alternative 1 is 
            acceptable because it retains all of the activities.
    <bullet> Exclude Yosemite Valley from the Wild and Scenic Rivers 
            Act. This segment is recreational and allows these 
            activities to continue.

    Chapter 5, page 21 of the Environmental Impact Statement Management 
Standard states, ``the Wild and Scenic Rivers Act provides for existing 
structures as of designation to remain.''
                          impacts to visitors
    <bullet> People come from all over the Nation and all over the 
            world to visit this national treasure. Many of the 
            residents of California who visit Yosemite, do so annually 
            to enjoy traditional family oriented activities year after 
            year. All of the visitors have come to expect to continue 
            to be offered the activities that they have enjoyed for 
            many years. We are told that many of these activities will 
            still be allowed, such as horseback riding, rafting, and 
            cycling. This is only true if you own a horse, a bicycle, 
            or raft, and can bring the ``activity'' into the Park with 
            you. It appears it is not the activity itself that is 
            harmful to Yosemite, but only if it can be rented in the 
            park by visitors who are unable to see the Park from a 
            hiking trail or shuttle bus. This is nearly impossible for 
            most visitors as transporting these items from a long 
            distance away would be unreasonable, and difficult. 
            Yosemite is a World Heritage Site and draws visitors from 
            all continents, none of whom can bring their own bicycle or 
            horse. The management proposal is unfair to these 
            international visitors, much less citizens from across the 
            Nation who may visit Yosemite only once, only to find they 
            have no access beyond the roadway.
    <bullet> With 17,000 tourists using wranglers to pack them in every 
            year and 34,000 people who hire private rafting companies, 
            recreation will be severely limited. Many people will not 
            be able to have the ``Yosemite Experience'' if they can't 
            hike or walk. All of the Alternatives, except the No Action 
            alternative 1, are focused on ``self-reliant, nature based 
            experience.'' The Plan discriminates against minorities, 
            those of modest means, the very young, the elderly, and the 
            disabled. For example, many visitors are unable to hike the 
            trails due to disabilities. Many lack outdoor experience 
            and have concerns for their safety, and many visitors are 
            unwilling to venture out on their own. The availability of 
            stock outfitters encourages Park visitors to get out of 
            their cars, get close to nature and enjoy a once-in-a-
            lifetime National Park experience. Seeing Yosemite on 
            horseback is an experience that cannot be replicated by 
            other means. For the vast majority of visitors, that 
            opportunity can be provided to them only through the 
            services of commercial guides. The same holds true for 
            bicycling, and river rafting. Bicycling in the National 
            Parks supports the National Park Service's Healthy Living 
            Initiative and offering bike rentals is a positive visitor 
            experience. Bicycling through Yosemite Valley is a unique 
            way to experience the scenery, and is an appropriate 
            alternative to driving cars, promoting the reduction of 
            vehicle congestion in the Valley. Providing handicap bike 
            rentals meets accessibility requirement for the National 
            Park Service. They also provide safety orientation and 
            trail map, helmet, helmet sanitation, daily inspection and 
            bike repair, fitting seats, assistance with child carriers, 
            wheelchairs, motorized scooters and recumbent bicycles. 
            Rafting also provides Yosemite's visitors with a quality 
            recreational experience directly connecting them to the 
            Wild and Scenic River and a unique way to view the majesty 
            of Yosemite Valley. Congress never intended to exclude 
            river use from the Merced, and in fact, recognized use of 
            the River as a ``value'' to be emphasized. Raft rentals are 
            only operated during safe river conditions. All 
            participants are provided with life vests and are given a 
            safety talk and river orientation prior to the trip. Most 
            people coming to the park cannot provide these services for 
            themselves, the result being, less visitation due to the 
            lack of recreational activities. The National Park Service 
            should retain visitor services because their removal seems 
            to have no direct benefit to the river values. The activity 
            is not said to be harmful to the river. Yet, in this 
            proposed ``river management plan'' somehow a raft brought 
            in by a visitor is good, but a raft rented by a visitor is 
            bad. It is not required by the Wild and Scenic Rivers Act, 
            and the public greatly values these services.
    <bullet> I have also received much concern from horsemen over stock 
            use in Yosemite National Park. Under the Preferred 
            Alternative, there would be no more pack trips into Merced 
            Lake, and bed space would be reduced. Alternative 2 even 
            suggests the removal of the whole camp and all the 
            infrastructure, and designated camping would be eliminated.

    In other words it would be returned to wilderness. The Tuolumne 
River Plan intends to reduce the bed space at Glen Aulin High Sierra 
Camp as well. If the Park Service succeeds in doing this it will sever 
a major historical trail system. At this time the camps are more or 
less equal in capacity, which allows for the best hut-to-hut 
experience. The system is historic, traditional, and many of the camps 
are eligible for listing on the National Register. The High Sierra Camp 
loop system is one of a kind in the Sierra, and is a unique experience 
for Yosemite visitors. When ninety five percent of Yosemite was 
designated as wilderness in 1984, the High Sierra Camp Loop System was 
not included. The camps are not part of the designated wilderness, and 
they all retain a buffer around them that is not wilderness. They are 
havens in Yosemite National Park that enhance visitor comfort and 
enjoyment, and should remain for present and future generations to 
enjoy. Stock use is historical and is allowed by law in the Wilderness 
Act. Wranglers on the trail provide extra eyes and ears for the Park 
Service, and can be instrumental in search and rescue efforts. The 
stock users I am affiliated with all practice the ``Leave No Trace'' 
principles, and believe in gentle use of the wilderness. The Park 
Service should retain all commercial stock use within Yosemite National 
Park.
    the effect of the wild and scenic rivers act in yosemite valley
    We are aware that the Wild and Scenic Rivers Act has three 
designations, ``wild, scenic and recreational.'' The portion of the 
Merced River that runs through Yosemite Valley is designated 
``recreational.'' However the Park Service is treating it like it is 
``wild'' by creating a river corridor and turning everything within the 
corridor back into wilderness. Yosemite Valley is not and never has 
been a wilderness, unless you go back to glacial times. The Native 
Americans settled in Yosemite Valley thousands of years before the 
White man saw it. Yosemite Valley was a developed area devoted to 
recreation for over 100 years after being designated public property, 
and 50 years after becoming a National Park. The Merced River Plan is 
contradictory.

    <bullet> It does not meet the intent of the Grant signed by 
            President Lincoln and passed by Congress in 1864 that 
            states Yosemite Valley and the Mariposa Big Tree Grove were 
            ``to be held, for public use, resort and recreation, 
            inalienable for all time.''
    <bullet> It also contradicts the Organic Act of 1916, that was 
            created by the National Park Service for the purpose of 
            promoting a system of national parks. We think that both of 
            these acts should take precedence over the Wild and Scenic 
            River Act. We would point out that these recreational 
            activities existed in the Valley before the Merced River 
            was designated ``wild and scenic.'' We also know that it 
            was not the original intent of the Wild and Scenic Rivers 
            Act to remove almost all recreation and services within the 
            river corridor. It was put in place to prevent developers 
            from building dams on the river.

    It is also interesting to note that none of the activities slated 
for removal degrade the river in any way.

    <bullet> In Chapter 7 of the Environmental Impact Statement, the 
            Facilities and Services chart shows that the Curry Village 
            Raft Rental, the Curry Village Ice Rink, the Curry Village 
            Bike Rental, the Horseback Day Rides in Yosemite Valley, 
            and the Ahwahnee Swimming Pool, do not affect the River 
            Values, and that there is no required action or mitigation 
            measures. We do not believe that the Wild and Scenic Rivers 
            Act intended to take away something that was already there 
            if it was not causing degradation. Attached is a letter 
            from Former Congressman Tony Coelho to Director of the 
            National Park Service, Jon Jarvis that states, ``the Wild 
            and Scenic Rivers Act was never intended to apply to the 
            Merced River within Yosemite National Park at all. The 
            Merced River within Yosemite National Park is protected and 
            regulated by the National Park Service and has never needed 
            an overlay of inconsistent and confusing regulation. The 
            Wild and Scenic Rivers Act was intended to apply to the 
            Merced River outside the Park to the west.''
    <bullet> We also discovered in Chapter 5, page 23, Protecting and 
            Enhancing Free-flowing Condition that ``The free-flowing 
            condition of the Merced River is determined to be absent of 
            adverse effects, degradation and management concerns, and 
            that the overall water quality of the river was 
            exceptionally high, with relatively few impacts caused by 
            development and visitor use.'' There is no requirement in 
            the Wild and Scenic Rivers Act to make a river that was 
            free-flowing at the time Congress designated it to somehow 
            ``enhance'' it or make it even ``more free flowing'' by the 
            management plan. The National Park Service is, on its own, 
            taking the act and turning it into something Congress never 
            intended for either the Wild and Scenic Rivers Act or 
            Yosemite. The American River through our State Capitol, 
            Sacramento, is a wild and scenic river. Does this mean that 
            the Wild and Scenic Rivers Act requires their bridges to be 
            removed and their commercial activities to be curtailed?
    <bullet> The activities listed are only a few of the things slated 
            for removal. They also plan to eliminate the Ahwahnee 
            Tennis Courts, the historic Sugar Pine Bridge, Curry 
            Village Pizza Deck and Bar, retail stores, the Garage 
            Facility, the historic apple orchard, the Housekeeping camp 
            grocery store, the Yosemite Village Sport Shop, the Art 
            Activity Center, and overnight lodging in the Valley would 
            be reduced by 7.5 percent.
    <bullet> Nature Bridge, which connects youth to Yosemite in a 
            unique way is also threatened. Participants from 
            underserved populations who are in their programs have 
            greater reliance on equipment that is rented or provided by 
            Nature Bridge. It was John Muir's intention to welcome the 
            visitor to Yosemite to be educated and inspired. 
            Educational opportunities in Yosemite are very important, 
            as they will encourage visitors to take care of their Park.
    <bullet> Parking and traffic congestion in Yosemite Valley is 
            another issue that affects visitation to the Valley. Since 
            1980 and especially after the 1997 flood, the Park Service 
            incrementally removed parking places creating some of their 
            own traffic problems. There are estimates of 3,000 to 6,000 
            fewer parking spaces. The Park Service should be using the 
            pre-1997 flood numbers as a baseline to accurately gauge 
            what is added and what is being taken away. Limiting access 
            to fix a problem that the Park Service created is not the 
            answer.
                            economic impacts
    <bullet> The Merced River Plan will also be detrimental to a vast 
            number of people. It will eliminate many jobs, and many 
            livelihoods will be threatened, not just in Yosemite and 
            the gateway communities, but clear to the Central Valley 
            and beyond. This will create a ripple effect. The 
            businesses that supply them will suffer. This will have 
            negative economic effects to other businesses as well as 
            lessening local, State, and Federal tax revenues.
                                outreach
    <bullet> We also feel that the outreach to the visitors to Yosemite 
            National Park was inadequate. The Draft Environmental 
            Impact Statement (DEIS) was released in January 2013. It is 
            a four thousand page document including exhibits that is 
            sandwiched between two other plans, The Tuolumne River Plan 
            and The Mariposa Grove Restoration Plan. This is much more 
            information than the average citizen can absorb and comment 
            intelligently on in the ninety days allowed. A bi-partisan 
            group of Congressmen concurred that an extension was 
            necessary, and requested that the National Park Service 
            extend the public comment period by 90 days. However, the 
            Park Service extended the comment period by only 12 days. 
            The public meetings where not published in a timely manner 
            to allow citizens to arrange for the time off from work to 
            attend them, and sometimes the times and dates were 
            incorrect.

    They did not encompass an adequate cross section of visitors to the 
Park. The meetings were held primarily in the gateway communities. The 
only cities that were visited were San Francisco and Los Angeles. There 
were no public hearings in the central valley, and the visitors from 
out of State and Europe were completely ignored. I attended many of the 
public hearings in our area and became painfully aware as time went on 
that the Park Service really didn't want to hear what we had to say, 
and provided less and less time for public questions and comments. 
Attached is a letter to Superintendent Neubacher expressing our 
frustration of being shut out of the process. It felt like the Park 
Service had already made up their minds and was just going through the 
motions. They are not hearing what the more than 3 million visitors a 
year to Yosemite are saying.
    In conclusion a very large number of citizens are opposed to the 
Merced River Plan and all that it implies. We think the Park Service 
has taken the Wild and Scenic Rivers Act way too far. It will 
absolutely change the way visitors experience Yosemite. Please take 
steps to insure that traditional, time honored experiences will 
continue in Yosemite National Park for generations to come. On behalf 
of Yosemite For Everyone, we thank you for your consideration.
                                 ______
                                 
    Mr. Bishop. Thank you for your testimony and being here.
    We will now turn to Mr. Ouzounian. Is that correct?
    Mr. Ouzounian. It is.
    Mr. Bishop. Great. If we can once again pull one of the 
microphones that is closest to you--or maybe do both of them, 
you can do a stereo effect here.
    Mr. Ouzounian. And 10 minutes?
    Mr. Bishop. OK.
    [Laughter.]
    Mr. Bishop. Turn the timer over to you. Thank you, sir.

   STATEMENT OF BRIAN OUZOUNIAN, CO-FOUNDER, YOSEMITE VALLEY 
                       CAMPERS COALITION

    Mr. Ouzounian. Mr. Chairman and members of the Committee, I 
greatly appreciate this opportunity to appear before you today 
to discuss the MRP DEIS concerning the future of Yosemite. I am 
here to represent and speak for millions upon millions of 
Yosemite Valley campers, past, present, and future, in support 
of access for affordable, family friendly, auto-based drive-in 
camping in Yosemite Valley. I am part of four generations of 
Yosemite Valley campers in my own family, who started camping 
in the 1920s. I have been active in this effort for 33 years, 
with various management and planning teams, traveling great 
distances on my own dime and on my own time, to speak up on 
behalf of those I represent.
    Early on, about 1979, I was aghast to learn that we campers 
were left--all but left out of the planning process for the 
1980 GMP. However, I have observed a trend that is the same 
poor planning continued with all the Park's planning, including 
the MRPs over the last 13 years. All this leading to campers 
being disenfranchised. This latest MRP project is even more 
discouraging, as we were specifically told that this project 
would be different, in that we would be partnering. This was 
not to be true, as the alternatives that were studied did not 
include our request, which was, among other things, the repair 
of the 1997 flood-damaged campgrounds and the sites to their 
original state.
    With regards to planning process, sadly and true to past 
ill form, the planners skewed the outcome of the process, as 
they did not reach out to the very deep data base of campers to 
involve them in the process and allow them to respond. The YNPS 
has a reservation data base that would easily allow contacting 
each one. However, they localized their outreach, provided 
minimal demographic efforts, aside from local, regional 
communities. In counting the participants at each venue in 
total, this process has not reached the public scrutinies 
commensurate of the weight of this study that carries national 
precedence in its setting.
    We recognize the venue in--well, let me skip that.
    In our opinion, the YNPS intentionally refused to reach 
camping respondents, knowing full well that it would invite 
huge and passioned responses in favor of valley camping as a 
priority that the planners did not want to face. Alternatively, 
they could just flat out ignore repeated requests and 
importance for access of affordable, family friendly, auto-
based camping, which is a remarkable, outstanding value.
    To this body I say that and ask anyone who spends time in 
Yosemite Valley and they will agree that what Olmstead stated 
in his letter commissioning the park to the State was time well 
spent, and it is therapeutic of body and mind.
    To more fully illustrate to the planners what we wanted 
graphically, I marked up a large-scale map, which--I brought 
one, in case you want to ask me some questions and see it--so 
that we could really see how it lays out on the valley floor. 
These requests were denied. There were no park surveys of 
visitors to support public demand and preferences. Every 
opportunity was afforded the planners to walk and talk to 
visitors, yet they chose not to do so. The public has to rely 
on the park's charts and figures of their best guesses.
    This is what the campers want: affordable, family friendly, 
auto-based drive-in camping in Yosemite Valley, by first 
repairing the flood-damaged campgrounds to include Lower Pines, 
Upper River, Lower River, and group camping north of Tenaya 
Creek. Do not remove any campgrounds--any campsites from North 
Pines. This land, all of it, is campgrounds in need of repair 
from the flood.
    Second, we want the park to provide the same type of 
affordable, family--auto-based campsites to meet the pre-1980 
GMP levels: 872 drive-in sites, 58 walk-in sites, 14 group 
sites. Post-flood, Congress gave the NPS $17 million to repair 
the flood-damaged campgrounds, as reported by Mr. Hodep in his 
report dated 3/26/1997----
    Mr. Costa. Mr. Chairman? Could he repeat those numbers one 
more time?
    Mr. Bishop. Could you repeat the numbers? And we will give 
him some additional time to conclude.
    Mr. Ouzounian. Eight hundred and seventy-two drive-in 
sites, 58 walk-ins, 14 group sites.
    Mr. Costa. Thank you.
    Mr. Ouzounian. The NPS failed to make repairs using that 
money, and I am told that it was spent on other things and 
there was no money left. This must be some kind of crime, is it 
not? Camping along the Merced River is a very specific ORV, 
unlike other sites inland, are the most sought-after sites in 
the park. River sites as they were in pre-flood conditions need 
to be repaired and re-installed. They are significant to the 
visitor experience and resource-based appreciation. Riverside 
campsites have always been the most sought-after in the valley, 
just as it was with our Native Americans.
    Campers enjoy the challenge of rustic living, as it 
provides a common challenging method of fending for themselves, 
and challenging of creativity, which lends itself to more 
appreciation of the park's surroundings, other ORVs, and its 
resources. Visitation via camping is natural to the precious 
resources of Yosemite. Camping in the valley is more than a 
recreational ORV. It is traditional, social, cultural, and to 
some, a religious ORV in line with the Native Americans who 
first camped in the valley. We believe that affordable, family 
friendly, auto-based camping is an endangered activity in 
Yosemite Valley. If this terrible plan is implemented, it will 
set the same precedent for planners of every study undertaken 
in our country under WRSA compliance.
    The campgrounds to pre-1980 GNP levels are historical 
landmarks. Just as the bridges, these certainly pre-date Camp 
Four, known as the ``Climber's Camp.'' It was awarded 
historical status after climbers filed a lawsuit via settlement 
with the NPS to place it on the national registry. Does the 
public have to sue our Government to get our campgrounds on the 
historical registry? All campgrounds are historical, back to 
the early 1900s.
    It is apparent that the NPS believes that campers adversely 
impact the river, as well as degrade it, even though they 
cannot prove it. Is this via science or management discretion? 
Yet, in fact, the ORV baseline condition report states to the 
contrary, that it is the river flooding that carries adverse 
impacts. Why does the NPS use untruths?
    Mr. Bishop. Mr. Ouzounian, can I ask you to conclude very 
quickly, please?
    Mr. Ouzounian. Yes. With regard to making a campsite 
reservation, the demand is so high and the supply so little 
that it only takes 1 minute from the start of the reservation 
opening for all the sites for the month to be swallowed up. 
U.S. residents and taxpayers have to compete with the world via 
Web site to pay to play. It is a technical race unequal to 
anything imaginable. Reservation day is the worst day of the 
year, because just the thought of failure to get a reservation 
is very discouraging. You have to face your family and say, 
``Not this time,'' and tears flow.
    [The prepared statement of Mr. Ouzounian follows:]
  Prepared Statement of Brian Ouzounian, Co-Founder, Yosemite Valley 
                           Campers Coalition
    Mr. Chairman and members of the Committee, I greatly appreciate 
this opportunity to appear before you today to discuss the MRP DEIS 
concerning the future of Yosemite. I am here to represent and speak for 
millions upon millions of Yosemite Valley campers, past, present and 
future in support of access for ``affordable family friendly auto based 
drive-in camping'' in Yosemite Valley. I am part of four generations of 
Yosemite Valley campers in my family who started camping in the 1920s.
    I have been active in this effort for 33 years with various 
management and planning teams traveling great distances on my own dime 
and on my own time to speak up on behalf of those I represent. Early 
on, about 1979, I was aghast I learned that we campers were all but 
left out of the planning process for the 1980 General Management Plan 
known as the 1980 GMP; however I have observed a trend that this same 
poor planning continued with all the park's planning including the 
MRP's over the last 13 years; all this leading to campers being 
disenfranchised.
    This latest MRP project is even more discouraging as we were 
specifically told that this project would be different in that we would 
be ``partnering.'' This was not to be true as the alternatives that 
were studied did not include our request, which was, among other 
things, the repair of the 1997 flood damage campgrounds and sites to 
their original state.
    With regards to the planning process, sadly and true to past ill-
form, the planners skewed the outcome and the process as they did not 
reach out to the very deep data base or campers to involve them in the 
process and allow them to respond. The YNPS has a reservation system 
data base that would easily allow contacting each one. However, they 
localized their outreach and provided minimal demographic efforts aside 
from local regional communities. In counting the participants at each 
venue and in total, this process has not reached the public scrutiny 
commensurate of the weight this study carries and the national 
precedent it sets. We requested a venue in Orange County so that 
respondents in San Diego would have an opportunity but it was denied 
and held in Los Angeles, 3 hours from San Diego plus traffic delays 
during a weekday rush hour. Limiting the outreach to campers mitigates 
input, which, judging by our petition, would be overwhelming in 
opposition.
    It is our opinion that the YNPS intentionally refused to reach 
camping respondents knowing full well that it would invite huge and 
impassioned responses in favor of valley camping as a priority that the 
planners did not want to face. Alternatively, they just flat-out 
ignored our repeated requests and the importance of access for 
affordable family friendly auto based drive-in camping as an 
Outstanding Remarkable Value (ORV) and its resource based visitor 
enjoyment.
    In 1864, President Abraham Lincoln and the U.S. Congress passed the 
Yosemite Grant or 1864. The President commissioned the park to the 
State or California via the famous architect Frederick Law Olmstead who 
authored Yosemite and the Mariposa Grove: A Preliminary Report. 1865. 
The basic intent for access to the park is true today as it was in 1865 
with reference to pages xvi and xvii or the introduction and page 12 as 
follows:
Page xvi and xvii states:
    ``He [Olmstead] describes the beneficial effect or natural scenery 
upon the human mind, and claims that a republic owes this benefit to 
its ordinary citizens.

        If we analyze the operations of scenes of beauty upon the human 
        mind, and consider the intimate relation of the mind upon the 
        nervous system and the whole physical economy, the action and 
        reaction which constantly occurs between bodily and mental 
        conditions, the reinvigoration which results from such scenes 
        is readily comprehended.

    He argues that British statesmen remain very active into old age 
because they retreat regularly to their private parks or the mountains. 
But in America, he believes, this invigorating contact with natural 
scenery should be available to all citizens. Therefore, it is the duty 
of a republican government to safeguard its most impressive scenic 
areas for the use of its citizens . . . His first recommendation is 
preservation: . . . His second recommendation is public access. Only 
those travelers who were able to afford a lengthy trip by pack train 
could visit the Yosemite Valley in Olmstead's day. [``As long as the 
present arrangements continue,'' he wrote, Yosemite ``will remain, 
practically, the property only or the rich.''].
    To this body, I say that it is as true today as it was in 1864 that 
the park is accessible only for the affluent that can ``pay to play.'' 
Olmstead makes mention that only the upper class, which mainly came 
from Europe, could afford the expeditions and their huge costs to 
access Yosemite. Well look what we have now. From nearly $118 a night 
for a Camp Curry tent cabin to $1,148 a night for a suite at the 
Ahwahnee Hotel. If you cannot camp, these are the real costs of 
visitation as well as the limited access. How unfortunate that we have 
lost our way to the original intent of this park.
Page 12 of Olmstead's book goes on to state the following:
    ``It is a scientific fact that the occasional contemplation of 
natural scenes of an impressive character, particularly if this 
contemplation occurs in connection with relief from ordinary cares, 
change of air and change of habits, is favorable to the health and 
vigor of men and especially to the health and vigor of their intellect 
beyond any other conditions which can be offered them, that it not only 
gives pleasure for the time being but increases the subsequent capacity 
for happiness and the means of securing happiness. The want of such 
occasional recreation where men and women are habitually pressed by 
their business or household cares often results in a class or disorders 
the characteristic quality of which is mental disability, sometimes 
taking the sever forms of softening of the brain, paralysis, palsy, 
monomania, or insanity, but more frequently of mental and nervous 
excitability, moroseness, melancholy, or irascibility, incapacitating 
the subject for the proper exercise of the intellectual and moral 
forces. It is well established that were circumstances favor the use of 
such means of recreation as have been indicated, the reverse of this is 
true.''
    To this body I say that ask anyone who spends time camping in 
Yosemite Valley and they will agree with what Olmstead has stated. Time 
spent here is therapeutic to the mind, body, and soul.
    With regards to our petition, it was the urging of U.S. Senator 
Dianne Feinstein, she being a camper, that moved us to start a petition 
to gather support for repairing the flood damaged campgrounds as funded 
by Congress. First we had 500 hand-gathered petitions going camp to 
camp. Then we started an electronic petition with places for signers to 
speak to their opinions. It can be viewed at our Web site. The opinions 
expressed exemplified a message that is not of science or management 
practices or flippant chats but of a love affair and legacy for the 
park beyond what one person can say. There are about 2,000 signers and 
maybe 1,000 testimonies. This has been submitted to the YNPS on more 
than one occasion for their review and consideration. Unfortunately, no 
alternative was studied or made the cut for the study as an 
alternative. What must we campers do to be taken seriously! Almost all 
planning meetings were attended and the information reiterated multiple 
times in each session. Comments were mailed in and hand delivered. 
Unfortunately, the plan does not take to heart these testimonies. In 
fact, the plan breaks up the love affair and legacy that has been 
passed on by generations or valley campers.
    Additionally submitted to more fully illustrate to the planners 
what we wanted graphically, I marked up large scale maps of the valley 
in red ink, one for the planners and one for me to hold, which I have 
here in case you wish to see it. It made very specific recommendations 
and comments. These requests were denied.
    There were no surveys of park visitors to support public demand and 
preferences. Every opportunity was afforded the planers to walk and 
talk to visitors yet they chose not to do so. The public has to rely 
upon the park's charts and figures of their best guesses.
    This is what we campers want: affordable family friendly auto based 
drive-in camping in Yosemite Valley by first repairing the flood 
damaged campgrounds to include Lower Pines, Upper River, Lower River, 
and Group Campground, north of Tenaya creek. Do not remove any 
campsites at North Pines Campground. This land is classified as damaged 
campgrounds in need of repair (from the flood).
    Second, we want the park to provide the same type of affordable 
family friendly auto based drive-in campgrounds to meet the pre-1980 
GMP levels, which are: 872 drive-in sites; 58 walk-in sites; and 14 
group sites.
    Post flood, Congress gave the YNPS $17 million to repair the flood 
damaged campgrounds as reported by Mr. Hodap and his report dated 03-
26-1997. The YNPS failed to make the repairs and I am told that it was 
spent on other things and there is no money left. This must be some 
kind of a crime is it not?
    Camping along the Merced River is a very specific ORV, unlike the 
other sites inland, and are the most sought after sites in the park. 
River sites as they were in pre-flood conditions need to be repaired 
and more installed. There is no definitive damage caused by them. (Ref: 
ORV Baseline Condition Assessment Report). They are significant in 
visitor experience and resource appreciation. Riverside campsites have 
always been the most sought after in the valley, just as it was with 
our Native Americans.
    Campers enjoy the challenge or rustic living as it provides a calm 
and challenging method of fending for ourselves and a challenge of 
creativity, which lends itself for more appreciation of the Park's 
surroundings, other ORVs, and its resources. Visitation via camping is 
natural to the precious resources Yosemite has to offer.
    Camping in the valley is more than a recreational ORV; it is a 
traditional, social, cultural, and to some, a religious ORV, in line 
with the Native Americans who first camped in the valley. We believe 
that affordable family friendly auto based drive-in camping is an 
endangered activity in Yosemite Valley. If this terrible plan is 
implemented, it will set the same precedent for planners of every study 
undertaken in our country for the WSRA compliance with a false basis of 
measurement.
    The campgrounds, pre-1980 GMP, are historical landmarks just as the 
bridges and these certainly predate Camp 4 now known as the ``Climbers 
Camp.'' It was awarded historical status after the climbers filed a 
lawsuit, via a settlement with the NPS, as a place on the Register of 
Historical Places after a court battle. Does the public have to sue our 
Government to get the other campgrounds on the historical registry? All 
the campgrounds are historical back to the early 1900s.
    Split-rail fencing along the Merced River at North Pines Campground 
and all other campground locations have been installed to prohibit 
public access to the River when, in fact, this is what the land was 
granted for. Their installation compresses visitor access to river 
banks at the fence ends creating an unnatural experience and unnatural 
degradation.
    It is apparent to us that the YNPS believes that campers adversely 
impact the river as well as degrade it, even though they cannot prove 
it; is this via science or management discretion? Yet, in fact, the ORV 
Baseline Condition Report states to the contrary and that it is the 
river flooding that carries adverse impacts. Why does the YNPS plan use 
untruths?
    Rafting on the Merced River in itself is an ORV and campers know 
how to do it best. We want to use our personal watercraft to the 
maximum extent possible WITHOUT PERMITS! It will self-regulate and it 
does not create concentrated degradation as does concessions rafting. 
Plus, there will not be the need for diesel buses to circulate the 
Valley to pick rafters. There will not be the need for two rafting 
diesel bus depots to ferry the rafters. (Note: we cannot have campfires 
any longer due to airborne particulate pollution but we can have 
circulating diesel buses for rafters?) lnfrastructure support to 
maintain this activity would be eliminated such as raft repair, bus 
repair, personnel support, etc. This would maintain a safer and more 
pleasurable river environment, lessening the crowds in the river and 
less haul-out damage to riverbanks. By scooting a few fallen trees 
aside parallel to the flow of the river, this can and will facilitate 
safer rafting as well as enhance the resources of the park and the 
ORV's, which we have requested for decades.
    Campers bring their own bikes, fend for their own repairs and have 
done this for decades. Campers do their grocery shopping on their own 
bikes as well as travel throughout the valley without the need for 
their cars. Campers basically park, camp, and ride. We do not need bike 
rentals but rather improved bicycle circulation paths throughout the 
valley.
    With regard to making a campsite reservation, the demand is so high 
and the supply is so little that it only takes 1 minute from the start 
of the reservation opening for all the sites for the month to he 
swallowed up. U.S. residents and taxpayers have to compete with the 
world via the web for sites we paid for. It is a technical race 
unequalled to anything imaginable. Reservation day is the worst day of 
the year because just the thought of failure to get a reservation is 
very discouraging. You have to face your family and say ``not this 
time!'' Tears flow.
    The lack of a Group Campground has caused campsite density to swell 
beyond the maximum of six (6) per site creating a diminished visitor 
experience. Campgrounds are bulging at this abuse of the rules and the 
staff and volunteers are not enforcing the rule. Nowhere in the YNPS 
documents is the former Group Campground mentioned. Why not?
    We DO NOT want more walk-in sites. They create blight via the 
parking lots that must be created for the cars associated with them (as 
does Camp 4's lot). They discriminate against the young, elderly and 
the disabled. They are not accessible affordable family friendly auto 
based drive-in camping. Few, if any, want to go camping by way of a 
tour bus. The MRP is fooling the public by thinking it can replace 
affordable family friendly auto based drive-in campsites with walk-in 
sites.
    Auto based camping is wise due to the regulated emissions on autos 
versus the unregulated massive polluting diesel buses that now 
transport visitors to the Park. Auto based visitation is more eco-
friendly. Besides, the roads in the Park are NOT engineered or designed 
for buses but rather autos and light trucks. Using CNG buses is 
precluded by the park not being able to establish CNG filling stations 
for the busses. Moreover, the weight balance is upset as luggage needs 
to be loaded beneath the passengers but CNG busses have their tanks and 
mechanics below the passengers leaving luggage loading and storage to 
the top of the vehicle that won't facilitate safe travel through the 
roads as they would be top-heavy.
    Of the 81 miles of Merced River, we campers want our ORV to be only 
along a couple of miles. Can't there be a reasonable balance?
    Every time there is a change in the park, campers bear the burden 
of the change. What has been observed over the years is a systematic 
elimination of access to affordable family friendly auto based drive-in 
campsites. All six alternatives in this MRP DEIS are unacceptable and 
contribute to this plan of elimination making it an endangered 
activity.
    Our way of camping in Yosemite Valley is nature-focused that is 
regarded by millions of visitors as the ultimate family camping 
experience that imbeds a life-long ethic of resource preservation for 
all ages. Intergenerational relationships emerge and are strengthened. 
The family is doing things it does not do at home, and without 
electronics. In a world of growing obesity, camping is a natural form 
of remedy. Springing from this experience in the valley is born the 
future climbers, backpackers, hikers, and conservationists, regardless 
of ethnicity or income level; an indiscriminate ORV. Where fixed roof 
facilities need multiple auto or truck trips for daily support year 
round, camping skills are developed for self-containment and comfort 
that needs minimal infrastructure support and can be enjoyed at entry 
level costs. Where fixed roof facilities are permanent year-round land 
impositions, campgrounds are only seasonal allowing regeneration of the 
land and many months of open space. (MPS 2006m) ``Camping brings the 
visitor into a direct relationship with park resources and distances 
the visitor from the commercial values of comfort and convenience and 
the expression of social status, Thus, camping brings the visitor 
closer to the very natural attributes for which national parks were set 
aside and protected.''.
    Harold Ickes (Secretary or the Interior, 1933-1945) was prophetic 
in stating: ``I think the parks ought to be for people who love to camp 
and hike . . . and have renewed communion with nature. I am afraid we 
are getting gradually alienated from that ideal. We lie awake at night 
wondering whether we are giving the customers all of the entertainment 
and all of the modern improvements that they think they ought to have, 
But let's keep away from that, because once we get started, there will 
be no end.''
    Mr. Chairman, this plan is NOT APPROVED in any way or alternative. 
If the YNPS really wants to correct the plan, repair the flood damaged 
campgrounds and sites to pre-flood (872 campsites) conditions and then 
address the recommendations we have addressed in this presentation.
    This concludes my statement. I would be pleased to respond to any 
questions you or other members of the Committee may have.
  the following is a discussion about the number of campsites and the 
                                 trend
    The 1980 GMP recognized the value or camping as a resource-focused 
activity. It proposed reducing the number of campsites in the valley 
from 872 to 756 of which there would be 684 ``family friendly'' auto 
campsites, 58 walk-in sites, and 14 group campsites. In 1992, the 
Concession Services Plan documented the existence of 7 campgrounds in 
Yosemite Valley for a total or 817 campsites--it would seem that this 
number would be the baseline for the number or campsites that existed 
at the time the Merced River was designated Wild and Scenic in 1987; 
however, it appears the Revised ORV Baseline Conditions Report is using 
872 from 1980 as the baseline number. The flood of 1997 severely 
affected the Upper and Lower River Campgrounds as well as the lower 
portion of Lower Pines Campground (as well as the Group Campground 
north of Tenaya Creek) reducing the number or available campsites to 
466 in the DEIS: however, the Park's Report appears to be using 436 
(The documents' numbers don't match such discrepancies raise doubts as 
to the accuracy or any numbers used in the DEIS.) Doing the math, there 
appears to have been a 43-50 percent decrease in camping opportunities 
since the 1987 designation; and using the Report's numbers, there has 
been nearly a 54 percent decrease in the number of ``family friendly'' 
auto based drive-in campsites since the 1987 designation.
    Within one of the webinars (possibly Feb. 14<SUP>th</SUP>), it was 
stated that camping was an ORV by Kathleen Morse. Regarding ORVs, the 
1982 Guidelines state that ``each component will be managed to protect 
and enhance the values for which the river was designated, while 
providing for public recreation and resource uses which do not 
adversely impact or degrade those values'' (aka the Nondegradation 
standard). WSRA then provides examples of possible River values such as 
scenery, recreation, fish and wildlife, geology, history, culture, and 
other similar values--though the primary emphasis still rests with the 
esthetic, scenic historic, archaeological, and scientific features. 
That being the case, there would seem to be no doubt that available 
camping opportunities in Yosemite Valley are in desperate need of 
protection and enhancement, especially considering the 54 percent loss 
of ``family friendly'' auto based drive-in campsites.
    Though the preferred alternative proposes to increase valley 
campsites from the No-Action Alternative number of 466 to 640, the mix 
of sites is suspect. Of that increase, 175 would be walk-in sites with 
presumably large parking lots, 36 are RV sites (more like the old 
``drive-in movie'' experience), and only 19 would be auto based drive-
in tent sites; the latter does very little to remedy the 54 percent 
loss of the ``family friendly'' auto based campsites from the baseline 
number at the time of the River's designation. It also flies in the 
face of the more than $17 million awarded by Congress to repair and put 
back the campsites that were lost in the 1997 flood.
    The following chart attempts to track the erosion and 
reconfiguration of camping in Yosemite Valley:

----------------------------------------------------------------------------------------------------------------
                                                                                          DEIS existing 2013MRP
                                            Pre-GMP        GMP       CSP    ORV   BCR <SUP>*</SUP>          (Alt.5)
----------------------------------------------------------------------------------------------------------------
Total...................................  872 (859 <SUP>*</SUP>)  756 (743 <SUP>*</SUP>)    817    436    466              640 (642 <SUP>*</SUP>)
----------------------------------------------------------------------------------------------------------------
<SUP>*</SUP> Denotes Revised ORV Baseline Conditions Assessment Report. The Report's 2012 number groups campgrounds
  together rather than delineating individually. The final number is less than what is documented in the MRP
  DEIS. The bolded totals are the official count per the Plan(s); the numbers in parens are the trackable ones.
  The concession Services Plan (CSP) only lists total sites in Yosemite Valley rather than delineating
  individually. The 1980 GMP authorizes 684 auto sites, 14 group sites, and 58 walk-in sites; there is no
  mention of Backpackers campgrounds taking over Group campground; it just seems to have suddenly appeared.

                                 ______
                                 
    Mr. Bishop. Thank you.
    Mr. Hoss?

               STATEMENT OF PETER T. HOSS, AUTHOR

    Mr. Hoss. Thank you for the opportunity to be here. I hope 
everybody can hear me. I am Peter Hoss. I am not a professional 
historian. I am an attorney by profession. I am a native of 
Yosemite. I have had lifelong experience in various aspects of 
it, including legal matters, hiking, working for concessioners, 
what not. I think I know the territory. I wrote a book called, 
``Born in Yosemite,'' published in 2011. And in that book, I 
addressed this litigation involving the Merced River in some 
detail. And I followed it as it developed, researched it, 
talked to the parties involved.
    So, what I want to review for you is the history of why we 
are here. I agree with Congressman McClintock that this 
initiation was initiated by what could be characterized as the 
extreme left of the environmental movement. It was never 
supported by traditional environmental organizations such as 
the Sierra Club, the Wilderness Society, the Conservation and 
Parks Association. The biggest impediment in developing the 
park has been this litigation. And I come to you with some 
suggestions as to how you can get rid of it, and get rid of the 
litigation and get on with managing the park.
    Tony Coelho, who introduced this, had no intention of 
applying the Wild and Scenic Rivers Act to Yosemite. That was 
his intention with the House of Representatives. When it came 
to the Senate, they said, ``Well, let's incorporate it into the 
existing draft plan,'' and that was intended to affect only the 
future, not the past, not to have any effect on anything that 
was in Yosemite. When the Wild and Scenic Rivers Act was put 
in, the intention was to leave Yosemite as it was, and to limit 
future development. That was the intention when it came in.
    But it did require a plan, because the administrative 
agency is the Park Service. They were required by the Wild and 
Scenic Rivers Act to initiate a plan. So they did: the YVP 
plan. This group of local, extreme environmentalists challenged 
the plan twice. When it eventually got up to the ninth circuit 
court of appeals, the only requirement imposed by the ninth 
circuit court of appeals was to ``assess user capacity.'' What 
does that mean? It means how many people can look at a river 
without degrading it. That is a question that almost belongs in 
Alice in Wonderland more than it does in the Park Service.
    The Park Service had a plan which the court rejected which 
said this is a qualitative thing. You educate people how to 
appreciate the river. Don't leave a trace. It is not a matter 
of how many people look at it, it is a matter of how people 
treat it. The court didn't agree with that. They said, ``No, we 
have to have a number, and you have to impose a number.'' As a 
practical matter, how can you do that when the number of people 
looking at the river changes every minute? You can impose a 
limit on the number of people who can be in Yosemite for day 
use, and that has been done.
    That is all the Park Service had to do. That is all they 
had to do, and they could have incorporated it into their plan, 
gone on with business. But they said, ``No, we don't want to do 
that, we want a settlement. We want to settle with these 
people, so they won't sue us again. So we are going to buy them 
off by paying their attorneys,'' number one, $1 million of 
taxpayers' money, which they were not obligated to pay, and 
then they want a comprehensive master plan. They want to throw 
out this other plan that has been done with all this work, do 
it all over again, and throw a lot of their own ideas into it, 
and we will throw a few of our own ideas into it, and that is 
how this 2,500-page document came into existence.
    Now, how can we get rid of this? You can vote no action on 
this plan. The parties have no recourse for that, really. They 
have their plan. The Park Service doesn't have to do what they 
want to do with the plan.
    So, I want to close this with a couple of statements from 
noted environmentalists. And this is what Dave Brower said of--
and he is probably the most outspoken environmentalist of the 
last century. This is what he said about Yosemite, and he has 
had some experience in it: ``The periodic assault on Yosemite 
guardians has gone on long enough. Gnats are being strained 
concerning Yosemite management while we in California, as a 
whole, swallow camels: the spoiling of waters offshore, 
reckless destruction of forests, and the apparent preference in 
gridlock over clean air. There were about 37 other visitors 
when I first visited Yosemite in 1918. When I stopped working 
there 20 years later, the count hit almost half-a-million. Last 
year there were more than six times that many, and the valley 
looked better and it was more enjoyable than it had been a 
half-century earlier. The impact of visitors on the valley has 
been lessened, and the impact of the valley on visitors has 
been enhanced. Generous credit is deserved by Yosemite people, 
government, and companies who have been masters of restoration. 
Yosemite people deserve a toast, not a roast. If they annually 
serve 3 million people and protect the park and the company 
makes a lot of money, don't curse that. Profit is still 
legal.''
    Now, what I am asking you to do here is two things that 
could be done to end this litigation and allow us to move on.
    Mr. Bishop. You have got 15 seconds to say it.
    Mr. Hoss. OK. Adopt no action on the plan.
    Mr. Bishop. OK.
    Mr. Hoss. And exclude all recreational areas in the valley 
from it, as was intended by Tony Coelho. Yosemite is not 
broken, and does not need to be fixed by these drastic 
measures. They aren't necessary. Thank you for your time.
    [The prepared statement of Mr. Hoss follows:]
    Prepare Statement of Peter T. Hoss, Author and Founding Member, 
                         Yosemite For Everyone
    I am Peter T. Hoss, a native of Yosemite, retired attorney, and 
author of a book entitled ``Born in Yosemite'' published in 2011, 
discussing 75 years of human history in Yosemite since 1934. I am a 
founding member of a group known as Yosemite For Everyone, consisting 
of persons with long experience in Yosemite from diverse backgrounds. 
Among our founders are a retired superintendent, a retired ranger now 
an attorney, a retired Federal Magistrate and his wife, the founder of 
the Yosemite Renaissance art program, the retired 20 year CEO of the 
principal Yosemite concessioner, and a long time resident and 
representative of gateway communities and horse owner and backcountry 
enthusiast.
    The Mission Statement of Yosemite For Everyone (Exhibit 1) is to 
protect the right of the general public to enjoy Yosemite, as provided 
in the original grant to the general public in 1864 and the Organic Act 
of 1916, creating National Parks. Yosemite For Everyone does not 
consider our real opponent in this matter to be the National Park 
Service (NPS), although we are critical of some of their actions. Our 
real opponents are two local organizations based in Mariposa 
California, who call themselves ``Friends of Yosemite Valley'' (FOYV) 
and ``Mariposans for Environmentally Responsible Government'' (MERG), 
Their apparent mission is to remove or seriously limit visitation by 
the general public to Yosemite Valley in order to ``restore'' Yosemite 
Valley to a wilderness it never was. They have twice filed lawsuits to 
overturn plans drafted by the NPS. In neither lawsuit were they joined 
as plaintiffs by nationally recognized environmental organizations such 
as the Sierra Club, the Wilderness Society or the National Parks and 
Conservation Association
    In Chapters 18, 19 and 20 of my book, after research, I followed 
and researched the history of the litigation by FOYV and MERG as it 
developed. I discussed the litigation in detail with two 
superintendents involved at important times and two of the plaintiffs.
    The argument made by FOYV and MERG is based on the premise that the 
more recently enacted Wild and Scenic Rivers Act (WSRA) imposes new 
regulations on the NPS when the rivers in question are in a National 
Park already under regulation by the NPS. In some cases, as in Yosemite 
Valley in particular, the regulations are contradictory.
    Any attempt to impose guidelines under the WSRA intended for rivers 
in a pristine undeveloped state on an river such as the Merced River in 
Yosemite Valley which has been devoted to recreational use for almost 
150 years will necessarily pose a dilemma for the agency charged with 
managing the area for the enjoyment of visitors, in this case the NPS.
    The WSRA recognizes this dilemma and has created a ``recreational'' 
designation for a river classified as wild and scenic. The Merced River 
flowing through Yosemite Valley and other recreational areas in 
Yosemite National Park has been properly recognized as 
``recreational.'' Certain portions of the other major river which flows 
through Yosemite National Park, the Tuolumne River, have also been 
classified as recreational. A separate master plan for the Tuolumne 
River is in process.
    The joint resolution applying the WRSA to rivers flowing through 
Yosemite National Park operates prospectively, not retroactively, and 
pertains only to future development The NPS, driven by fear of future 
lawsuits by FOYV and MERG, has violated this directive and has 
attempted to apply WRSA guidelines to existing infrastructure, historic 
bridges, and traditional recreational activities in place long before 
the WSRA was enacted. The current Draft Plan goes too far in this 
direction.
    This adds up to a Draft Plan fatally flawed and grounded on the 
false premise that WRSA guidelines supersede and nullify the terms of 
the original grant of Yosemite for the enjoyment of the general public 
and future generations, and the Organic Act of 1916, which reaffirms 
this objective. This is certainly true when WSRA guidelines are applied 
to areas classified as ``recreational'' areas. An overlay of 
conflicting regulations will only lead to controversy and future 
litigation, which may come from a different direction if the NPS 
insists on forcing an unpopular Draft Plan on the general public.
    We would like to point out two ways by which the NPS can resolve 
this dilemma, avoid continuing litigation and move on to more urgent 
matters requiring their attention. These measures can be taken under 
the existing WSRA without changing the law. A change in the law would 
be desirable but more difficult. We appear before you to urge you to 
exercise your influence to encourage the NPS to take these steps, and 
if the NPS refuses to respond, take these measures for them by amending 
and clarifying the impact of WRSA on rivers within Yosemite and other 
National Parks:
    (1) The NPS is required by the National Environmental Protection 
Act (NEPA) to include a ``no action'' alternative in any master plan. 
In this case this would mean that no new WSRA requirements are needed 
or warranted. Infrastructure and traditional activities remain (see 
exhibit 4 for a definition of the impact of the decision to elect ``no 
action'' on this plan).
    (2) Yosemite Valley and areas designated ``recreational'' should be 
excluded from the current Draft Plan and any future plan in the same 
manner as the existing Hetch Hetchy Dam on the Tuolumne River is 
excluded from a plan for a river which is supposed to be free flowing 
under the WSRA. What is there stays there. This action would permit the 
NPS to complete a plan required by the WSRA as written by applying it 
only to areas of the river which are truly wild and scenic and have 
already been classified as wilderness by the NPS, comprising 95 percent 
of Yosemite National Park.
    We submit the following points in support of our position.
    1. Tony Coehlo, who introduced the bill requesting the Merced River 
to be designated under the WSRA in the House of Representatives, did 
not intend it to be applied to Yosemite National Park at all (see 
Exhibit 2), letter from former Congressman Tony Coehlo to Jon Jarvis) 
His intention was modified by the Senate but only as applied to future 
action (see Exhibit 3, letter from Peter T. Hoss to the Mariposa 
Gazette).
    2. At present there is no law or court order which obligates the 
NPS to adopt any of the proposed alternatives other than ``no action.'' 
The governing document is a 2009 settlement agreement which superseded 
the now vacated and dismissed action in the Federal District Court, 
appealed to the 9th Circuit Court of Appeals. This is a complex 21 page 
document with numerous exhibits (see exhibit 4; summary of the most 
important provisions).
    3. In the settlement agreement the NPS, in exchange for the 
dismissal of the legal action, agreed to pay plaintiffs' attorneys 
$1,025,000 of taxpayers' money which they were not ordered to pay, and 
to undertake a new comprehensive master plan, which they were not 
obligated to undertake. Attorneys for plaintiffs' recommended 
``experts'' from outside Yosemite to draft the plan. (see exhibit 5, a 
letter from Julia Olsen attorney for plaintiffs') This letter is full 
of references to WSRA guidelines. Many of the recommendations from 
plaintiffs' attorneys were inserted in the settlement agreement. The 
plaintiffs, FOYV and MERG speak only for themselves, not the 
unrepresented general public, who paid the bill for the plaintiffs' 
attorneys and the comprehensive plan. (See exhibit 4) The NPS chose to 
add details beyond anything requested by plaintiffs.
    4. As far as we can determine Congress did not appropriate to the 
funds to pay plaintiffs' attorneys or to pay for the cost of preparing 
the comprehensive master plan. Congress did appropriate funds to repair 
extensive 1997 flood damage to Yosemite Valley infrastructure. We 
understand that an accounting of the flood repair funds has been 
demanded by Congressman Tom McClintock. We believe this should be 
pursued.
    5. No actual degradation of the Merced River has been demonstrated. 
The elimination of many traditional recreational activities which bear 
no relationship to the protection of the river have been recommended 
(bicycle rental, daily horseback rides, ice skating, raft trips, 
swimming pools) with no compensating benefit to visitors. Wendy Brown 
Berry will provide more details.
    6. The undefined phrase ``restrict commercial activities'' appears 
in proposed alternatives. It is clearly aimed at restricting 
concessioners for charging fees for providing visitor services. If this 
is not the case, why is it acceptable to bring one's own bike, raft or 
horse but not to rent one? There is no logic behind this distinction. 
Concessions from the private sector have served National Park visitors 
since the inception of the NPS. They are regulated down to the price of 
a candy bar by a whole separate body of law. Restrictions on visitor 
service do not belong in this plan and should be stricken.
    7. We are not able to cite numbers, but we are aware of 
overwhelming objection to all alternatives other than ``no action'' 
from the general public. This large number of complaints induced 
Congressman Tom McClintock to write a strong letter of protest against 
the Draft Plan (exhibit 6)
                               conclusion
     As above stated, we request that Congress exert its influence to 
aid the NPS in closing the door on further litigation by adopting the 
``no action'' alternative. The effect of a ``no action'' vote is 
explained in (Exhibit 7) FOVY and MERG received what they bargained for 
in the settlement, a comprehensive draft plan not required by law or 
funded by Congress. They are certainly not entitled to dictate which of 
five unacceptable alternatives the NPS must select. Moreover, they are 
committed to a mediation procedure before they can sue (see exhibit 4). 
Others displeased with the plan who have not been represented are not 
committed to mediate before suing.
    We also request that Congress exert its influence on the NPS to 
exclude areas designated ``recreational'' within Yosemite National Park 
from this draft plan or any future draft plan.
    If the NPS does not avail itself of this opportunity to extricate 
itself from the damned if you do, damned if don't dilemma in which it 
finds itself, we request that Congress do the job for it by amending 
and clarifying the WRSA as applied to rivers flowing through National 
Parks. Also, if the Park Service refuses to follow the will of the 
general public by adopting any alternative other than ``no action'' we 
request that any such Draft Plan not be approved or funded by Congress.
    There are many other undesirable features in this Draft Plan as 
well as some which are helpful. However, they are all thrown together 
in a 2,500 page document. The good cannot be separated from the bad, so 
``no action'' is the only common sense solution. On behalf of Yosemite 
For Everyone and a great silent majority who want to keep enjoying 
Yosemite, I urge your serious and thoughtful consideration of these 
suggestions.

                              [Exhibit 1)

                yosemite for everyone--mission statement
    Yosemite For Everyone is a group of dedicated individuals and 
concerned citizens who have an intimate connection with Yosemite 
National Park. They have all spent quality time in Yosemite, and have a 
good understanding of the park's inner workings and infrastructure. 
They believe in a common sense approach to preservation where visitor 
use is balanced with protecting the environment. They support 
recreational activities that have been traditionally and historically 
enjoyed for 150 years, and think they should be preserved for visitor 
enjoyment and comfort. They support the act signed by President Abraham 
Lincoln in 1864 that states, ``the United States granted the Yosemite 
Valley and the Mariposa Big Tree Grove to the State of California, to 
be held, for public use, resort, and recreation, inalienable for all 
time.'' They also support the Organic Act of 1916 which provides that 
National Parks be preserved for the enjoyment of the public. They feel 
that providing recreational activities and amenities will add, not 
detract, from the Yosemite experience. And last, they walk in the path 
of John Muir, who welcomed the visitor to Yosemite National Park to be 
educated, inspired, and encouraged to ``Climb the mountains and get 
their glad tidings.''

        ``Climb the mountains and get their glad tidings and Nature's 
        peace will flow into you and cares fall off like autumn 
        leaves,'' John Muir.

                              [Exhibit 2]

      Letter From Tony Coelho, Retired Congressman From California
                                                     April 13, 2013
Mr. Jon Jarvis,
Director, National Park Service,
Washington, DC 20240.
    Dear Mr. Jarvis:
    I am Tony Coelho, retired Congressman from California. I am the 
author of the legislation that included the Merced River in the Wild 
and Scenic Rivers Act (WSRA).
    I have been asked to clarify the legislative intent of this action. 
The WSRA was never intended to apply to the Merced River within 
Yosemite National Park at all. The Merced River within Yosemite 
National Park is protected and regulated by the National Park Service 
(NPS) and has never needed an overlay of inconsistent and confusing 
regulation. The WRSA designation was intended to apply to the Merced 
River outside the Park to the west.
    The Merced River in Yosemite Valley has been recreational for 
almost 150 years. Yosemite Valley has never been wilderness. Any plan 
which proceeds under the WSRA should not change any infrastructure, or 
ban any activities traditionally carried on in Yosemite Valley such as 
bicycle rental, raft trips, daily horseback rides, or removal of the 
ice rink or swimming pools, nor should it require removal of historic 
bridges. I oppose any such measures. Yosemite Valley should be left as 
it is under any Plan required by the WSRA, subject only to traditional 
management by the NPS.
    There is a simple and reasonable way to accomplish this. That is to 
remove the Merced River within Yosemite Valley (which has been 
designated recreational) from any Plan required by the WSRA in the same 
manner the preexisting Hetch Hetchy Dam has been removed from the 
Tuolumne River Plan. This will end litigation and acrimonious 
controversy and allow Yosemite to be enjoyed by the public in the 
traditional manner, as intended in the original grant and the Organic 
Act of 1916 establishing National Parks.
    I urge this action to allow the 3,000,000 visitors per year to 
continue enjoying Yosemite.
            Sincerely,
                                                Tony Coelho

                              [Exhibit 3)

           Letter From Peter T. Hoss to the Mariposa Gazette
    To the Editor:
    I am Peter T. Hoss, author of a book entitled ``Born in Yosemite'' 
and one of a the founders of a group of retired Yosemite insiders (Park 
Service, concessioner Judicial, and Gateway tourist bureaus) calling 
ourselves Yosemite For Everyone.
    I feel compelled to respond to the assertion by Jan W. van 
Wagtendonk that he knows better than Tony Coehlo what Tony Coelho 
intended in introducing legislation to include the Merced River in the 
Wild and Scenic Rivers Act. The facts as I understand them are that 
Tony Coehlo stated his intention when he introduced the bill in the 
House of Representatives. His intention did not survive the Senate 
version. The Senate added a section applying the WSRA to Yosemite by 
amending the 1980 General Management Plan, using the language quoted by 
Jan W. van Wagtendonk, which speaks to future development only and does 
not require removal or relocation of anything existing or the cessation 
of any recreational activities. The Draft Merced River Plan goes far 
beyond the WSRA as written, and is an attempt to reconfigure Yosemite 
Valley in accordance with WSRA guidelines, as if almost 150 years or 
history and tradition have no importance.
    What is important is to consider what Tony Coelho said about the 
current Draft Merced River Plan follows: ``Any plan which proceeds 
under the WSRA should not change infrastructure, or ban activities 
carried on in Yosemite Valley, such as bicycle rental, raft trips, 
daily horseback rides, or removal of the ice rink, or swimming pools, 
nor should it require removal of historic bridges. Yosemite Valley 
should be left as it is under any plan required under the WSRA, subject 
only to traditional management by the NPS. There is a simple way of 
accomplishing this. That is to remove the Merced River within Yosemite 
Valley (which has been designated recreational) from the Plan required 
by the WSRA in the same manner as the preexisting Hetch Hetchy Dam has 
been removed from the Tuolumne River Plan. This will end litigation and 
acrimonious controversy and allow Yosemite to be enjoyed by the public 
in the traditional manner, as intended in the original grant and the 
Organic Act of 1916 establishing National Parks. I urge this action to 
allow 3 million visitors per year to continue enjoying Yosemite.''
    The Organic Act of 1916 establishing Yosemite as a National Park 
reaffirms the purpose of the original 1864 grant as follows ``. . . to 
conserve the scenery and the natural and historic objects and the wild 
life therein and to provide for the enjoyment of the same in such 
manner and by such means as will leave them unimpaired for the 
enjoyment of future generations.''
    In my book ``Born in Yosemite'' at page 300 I record Jan W. van 
Wagtendonk as quoted in ``Yosemite, the Embattled Wilderness'' by 
Edmund Runte p. 221 as follows: ``A reasonable interpretation of the 
Organic Act indicates that Congress intended that the Secretary of the 
Interior protect natural conditions in parks, as an absolute duty, and 
to only allow use consistent with that protection. It is questionable 
whether the Park Service should determine public desires and attempt to 
accommodate them.''
    Jan W. van Wagtendonk is entitled to his opinion but he is not 
entitled to rewrite the law.
    In addition to adopting the suggestion of Tony Coelho the Park 
Service should adopt the no action alternative. This means only that an 
overlay of conflicting regulations is not necessary to ``protect'' a 
river which in reality does not need protection. The Park Service has 
more important problems to deal with and should be freed up to manage 
Yosemite in the traditional manner without having to design a Plan 
intended to avoid further litigation from the tiny minority which sued 
them. Future litigation is likely to occur from another direction if 
the proposed plan is forced on a general public overwhelmingly opposed 
to it, which is the case as far as we can determine.

                              [Exhibit 4]

Case 1:00-cv-06191-AWI-DLB  Document 477  Filed 09/29/2009 Page 3 of 22

validity of the Yosemite Valley Plan by filing a Complaint of 
Injunctive and Declaratory Relief, 06-CV-01902 AWI.

      WHEREAS, on March 27, 2008, the Ninth Circuit issued its ruling 
on appeal, affirming the district court in all respects and remanding 
for further proceedings. Friends of Yosemite Valley v. Kempthome, 520 
F.3d 1024 (9th Cir. 2008);

      WHEREAS, on July 7,2008, this Court entered the mandate of the 
United States Court of Appeals for the Ninth Circuit, Doc. 429, 
formally remanding this case to the District Court for further 
proceedings, consistent with the Ninth Circuit's opinion in Friends of 
Yosemite Valley v. Kempthome, 520 F.3d 1024 (9th Cir. 2008);

      WHEREAS, on July 22, 2008, Magistrate Judge Sandra M. Snyder held 
a telephonic conference call with the parties and their counsel (Doc. 
430), during which the Court agreed to undertake a process for 
mediation of the disputes between the Settling Parties; and

      WHEREAS, the Settling Parties, with the assistance and through 
the good offices of Magistrate Judge Snyder, have reached agreement to 
settle and resolve this litigation according to the terms and 
conditions as set forth below and enable the Defendants to comply with 
their obligations under the Wild and Scenic Rivers Act (WSRA), the 
National Environmental Policy Act (NEPA), and other applicable federal 
environmental statutes;

      NOW, THEREFORE, in the interests of the Settling Parties and the 
public interest and to promote judicial economy, the Settling Parties 
hereby stipulate and agree to the following terms in settlement of any 
and all claims in the above-captioned litigation:

                             II. AGREEMENT

A.   Purpose of the Settlement Agreement

        This Agreement is executed solely for the purpose of 
        compromising and settling this litigation and nothing herein 
        shall be construed as a precedent in any other context. This 
        Agreement is not, and shall not be construed as, an admission 
        against interest or positions taken or of wrongdoing or 
        liability, by any of the Settling Parties with respect to any 
        fact or issue involved in any pending or future litigation.

Case 1:00-cv-06191-AWI-DLB  Document 477  Filed 09/29/2009 Page 4 of 22

B.   Merced Wild and Scenic River Comprehensive Management Plan

    1. Schedule. The National Park Service (NPS) agrees to complete a 
            new CMP for the Merced Wild and Scenic River and issue a 
            Record of Decision (ROD) for that new CMP by December 2012. 
            The Merced River CMP Milestones Calendar, attached as 
            Appendix A, and the following interim target dates will 
            guide the NPS in the preparation of the new CMP although 
            these target dates are not mandatory or binding deadlines:
      a.  Release Public Scoping Report--March 2010;
      b.  Publish and release Draft CMP and Environmental Impact 
            Statement December 2011;
      c.  Publish and release Final CMP and Environmental Impact 
            Statement November 2012; and
      d.  Issue Record of Decision--December 2012.
    2. Procedures.

      a.  User Capacity Experts. In contemplation of this settlement 
            agreement, the NPS hired as primary consultants Bo Shelby, 
            Doug Whitaker, and David Cole, recognized experts in user 
            capacity, to work directly with the NPS's lead project 
            manager in developing the Merced River CMP. These experts 
            will be involved in the planning process from the 
            beginning, including but not limited to working with NPS 
            staff in: (1) defining the Merced River's outstandingly 
            remarkable values (ORVs) on which the CMP will be focused; 
            (2) participating in the interdisciplinary team meetings 
            and workshops in order to help frame the discussions that 
            take place so that user capacity is integrated throughout 
            the planning effort; (3) participating in the development 
            of a reasonable range of alternatives; (4) reviewing and 
            assessing the user-capacity-related environmental 
            consequences discussion of the draft and final 
            environmental impact

 Case 1:00-cv-06191-AWI-DLB  Document 477  Filed 09/29/2009 Page 16 of 
                                   22

      experiences in Yosemite National Park. Examples of repair work 
            required to correct accessibility deficiencies include: 
            reconfiguring existing facility paths of travel in 
            developed areas; modifications to restrooms and fixtures; 
            providing accessible routes, signage and information; and 
            installation of required hardware and equipment. As stated 
            above, for purposes of this Agreement, a ``developed area'' 
            is defined as a location that contains multiple structures 
            and facilities to serve park visitors or park operations. 
            Examples of developed areas include campgrounds, Curry 
            Village, entrance stations, maintenance areas, and picnic 
            areas, but a developed area does not include an area where 
            the only development is a trail or an interpretive sign.
    4. If the NPS proposes to take any action that is other than for 
            routine or intermittent operations, maintenance projects 
            and/or emergency responses within the river corridor as 
            outlined above, the Defendants will provide advance notice 
            to the Plaintiffs prior to implementation of the project 
            and, if necessary, the Settling Parties will comply with 
            the Dispute Resolution process with Magistrate Judge 
            Snyder, discussed below in Section G.3. To the extent that 
            the Settling Parties have a disagreement over particular 
            activities, they agree to make a good faith effort to 
            resolve the disagreement through the dispute resolution 
            process discussed in G.3., below.
F.   Attorneys' Fees and Costs of Litigation

        Upon approval by this Court of the Settlement Agreement, the 
        Defendants agree to pay Plaintiffs a total or ONE MILLION 
        TWENTY-FIVE THOUSAND DOLLARS ($1,025,000) in full and complete 
        satisfaction of any and all claims, demands, rights, and causes 
        of action pursuant to the Equal Access to Justice Act, 28 
        U.S.C. Sec. 2412(d), and/or any other statute and/or common law 
        theory, for all attorneys' fees and costs incurred by 
        Plaintiffs, individually and/or severally through the date of 
        this Settlement Agreement, in the above-captioned lawsuits. The 
        check will be made payable to ``Law Office of Sharon Duggan, 
        IOLTA'' by electronic transfer, within sixty (60) days of Court 
        approval. No provision of this Agreement shall be interpreted 
        as or constitute a commitment or

 Case 1:00-cv-06191-AWI-DLB  Document 477  Filed 09/29/2009 Page 17 of 
                                   22

        requirement that the Federal Defendants obligate or pay funds 
        in violation of the Anti-Deficiency Act, 31 U.S.C. Sec. 1341, 
        or any other law or regulation.

G.   Dismissal of Litigation; Retention of Jurisdiction

    1. Dismissal. The Settling Parties agree that the YVP case, Case 
            No. 06-CV-01902, will be dismissed.
    2. Retention of Jurisdiction. The Settling Parties agree that the 
            Court shall retain jurisdiction for the purposes of 
            receiving periodic status reports from the Defendants and 
            overseeing, if necessary, the dispute resolution process 
            outlined in the following paragraph. The Court shall retain 
            jurisdiction for 120 days after the NPS signs the Record of 
            Decision for the new CMP. If the Plaintiffs file a 
            supplemental complaint challenging the new CMP and a motion 
            for preliminary injunction in the U.S. District Court for 
            the Eastern District of California within that time, the 
            parties agree to use the dispute resolution process in 
            G.3., below in a good faith effort to resolve the dispute. 
            NPS will agree to hold in abeyance any ground-disturbing 
            projects authorized by the CMP in the river corridor 
            following the filing of the supplemental complaint to 
            enable the Court to rule on any motion for a preliminary 
            injunction that the Plaintiffs file within that 120-day 
            period.
    3. Dispute Resolution. The Settling Parties have agreed that, to 
            assist them in implementing the terms of this Settlement 
            Agreement and avoiding future disputes regarding 
            compliance, Magistrate Judge Snyder will continue her role 
            as a neutral mediator. In this capacity, and with her 
            consent and the Court's approval, Magistrate Judge Snyder 
            will work with both parties to resolve any future disputes, 
            disagreements, or misunderstandings that may arise during 
            the course of implementing this Settlement Agreement. Any 
            action at issue in the Dispute Resolution Process may not 
            proceed until the Dispute Resolution Process is completed. 
            Before invoking the dispute resolution process, however, a 
            party must undertake and exhaust the following steps:

 Case 1:00-cv-06191-AWI-DLB  Document 477  Filed 09/29/2009 Page 18 of 
                                   22

      a. a party first must notify all other parties in writing when a 
            dispute or concern arises and request an opportunity to 
            discuss the disputed issues or concerns;
      b. all parties agree in good faith to make a concerted effort to 
            resolve the dispute or concern through direct negotiations 
            without the need for judicial intervention or mediation; 
            and
      c. if the parties are unable to resolve the dispute within a two-
            week period of time following notification of the dispute, 
            or longer upon agreement of the parties, then, upon written 
            notice to all other parties, all parties agree to notify 
            the court-appointed mediator and work cooperatively with 
            the mediator to reach agreement. If the dispute is not 
            resolved through the mediation process within 60 days after 
            the first meeting with the mediator, in person or by 
            telephone, then either Settling Party reserves the right to 
            seek judicial review. All parties agree to make every 
            effort to make themselves available and to meet with the 
            mediator at the earliest opportunity, even if one or more 
            representatives of that party is not available. However, 
            mediation may proceed beyond this time period as long as 
            the parties and the mediator believe it is worthwhile.

H.   Authority, Execution, and General Terms of Settlement Agreement

    1. This Agreement may be executed in counterparts. All executed 
            counterparts shall constitute one agreement, and each 
            counterpart shall be deemed an original.
    2. The undersigned representatives and attorneys for each Settling 
            Party certify that they are fully authorized by the Party 
            or Parties whom they represent to enter into the terms and 
            conditions of this Agreement and legally to bind such Party 
            or Parties thereto.
    3. Nothing in this Agreement shall be construed to deprive any 
            Federal official of authority to revise, amend, or 
            promulgate regulations. Nothing in this Agreement shall be 
            deemed to limit the authority of the executive branch to 
            make recommendations to Congress on any particular piece of 
            legislation.

 Case 1:00-cv-06191-AWI-DLB  Document 477  Filed 09/29/2009 Page 19 of 
                                   22

    4. Nothing in this Agreement shall be construed to commit a Federal 
            agency or official to expend funds not appropriated by 
            Congress.
    5. The Parties do not intend by this Agreement to confer any rights 
            or interests on any third-parties or non-parties to the 
            Agreement.
    6. The terms set forth in this Agreement are intended by the 
            Parties as a final expression of agreement with respect to 
            such terms, and may not be contradicted by evidence of any 
            prior agreement or any contemporaneous oral statement. This 
            Agreement is a complete and exclusive statement of the 
            Parties' agreement which may not be explained or 
            supplemented by evidence of additional terms. This 
            Agreement may not be altered, modified, or superceded 
            except by written instrument signed by each of the Parties 
            or as otherwise provided by order of a court of competent 
            jurisdiction.
    7. This Agreement shall be governed by, and construed and enforced 
            in accordance with, and pursuant to, the laws of the United 
            States of America.
    8. The paragraph headings in this Agreement are for the convenience 
            of the Parties and are not intended to be given any 
            substantive effect in interpreting the Agreement.
    9. Nothing in this Agreement shall be construed to constitute a 
            waiver of the sovereign immunity of the United States.
    10. The Parties acknowledge that each Party and/or its counsel have 
            reviewed and revised this Agreement and that no rule of 
            construction to the effect that any ambiguities are to be 
            resolved against the drafting party shall be employed in 
            the interpretation of this Agreement or any amendments or 
            exhibits to this Agreement or any document executed and 
            delivered by the Parties in connection with this Agreement.
    11. Confidentiality. The parties agree that all negotiations 
            leading up to this Agreement will remain confidential, 
            subject to the terms and conditions of the Confidentiality 
            Agreement and Order (Doc. 445) entered by the Court on 
            September 12,2008.

                              [Exhibit 5]

Case 1:00-cv-06191-AWI-DLB  Document 477-6  Filed 09/29/2009  Page 1 of 
                                   2

          Letter Submitted for the Record From Julia A. Olson
                              Wild Earth Advocates,
                                          Eugene, OR 97405,
                                                    March 30, 2009.
Charles R. Shockey,
United States Department of Justice,
Environment and Natural Resources Division,
Natural Resources Section,
Sacramento, CA 95814-2322.
Re:  Friends of Yosemite Valley v. Salazar, CV-F-00-6191 AWI DLB, 
        Project Manager Description.
    Dear Mr. Shockey,

    Plaintiffs provide this letter identifying the skills that they 
believe are important to consider in selecting a new project manager 
for the Merced Wild and Scenic River Comprehensive Management Plan, 
pursuant to section B.2.c of the Settlement Agreement.
    The new project manager should have previous experience with Wild 
and Scenic River plans and in developing user capacities on Wild and 
Scenic Rivers or an analogous program. She or he (``she'') should be 
familiar with the outstandingly remarkable values (``ORVs''), 
delineation processes, and methods of protecting and enhancing ORVs. 
Ideally, she should be familiar with Yosemite's natural and cultural 
resources. In the absence of direct experience working on a WSRA CMP, 
the project manager should have experience working on at least one 
significant land management plan, such as a Wilderness Plan, where 
protecting natural resources was the primary goal.
    She should be familiar with the Ninth Circuit and District Court 
decisions on the prior CMPs and have a thorough understanding and 
respect for WSRA as interpreted by the Secretarial Guidelines and the 
Courts. She should easily grasp that her primary goals are to protect 
and enhance river ORVs and establish user capacity consistent with that 
directive.
    She should have successful experience in natural resource 
preservation and a demonstrated success and commitment to identifying 
and preserving cultural and historic resources (e.g., Native American 
history/culture, archeology, ethnography, etc.). She should have some 
background experience or work in a relevant natural or cultural 
resources field, beyond planning or NEPA compliance. Experience working 
as a scientist

Case 1:00-cv-06191-AWI-DLB  Document 477-6  Filed 09/29/2009  Page 2 of 
                                   2

or a natural resources conservationist or a strong background in 
ecology would be preferred.
    She should work well with consultants (specifically the user 
capacity experts who will work on the CMP), be willing to listen to the 
public, have respect for differing views, and be a good organizer of 
personnel and making information available. She should have a high 
level of respect for the public NEPA process and for meeting the 
deadlines agreed to in the settlement agreement.
    She should have an appreciation for how historical conflict between 
the government and the public can create mistrust and needs to be 
overcome with a commitment to restoring confidence. She should have 
some direct experience and/or training with conflict resolution. She 
should be creative in communicating with, involving and integrating 
widespread participation and input from diverse perspectives (e.g., 
Native Americans, multi-generational campers, climbers, disabled, 
backpackers/hikers, environmentalists, gateway residents, NPS/DNC 
employees, park overnight lodgers, concessionaire/gateway hoteliers, 
equestrians, anglers, etc.) with a focus on commonalities as opposed to 
differences and an ability to view the public as offering a value-added 
perspective rather than an adversary that has to be overcome.
    She should not have an institutional bias in favor of the validity 
of past NPS actions in Yosemite and will consider ideas from others, 
including the Plaintiffs, with open-mindedness.
    She will have a commitment to transparency in the planning process. 
She should be comfortable with personal interaction between the public 
and the NPS from the onset of plan preparation and with making herself 
accessible to the public. She should be open to exploring and 
implementing alternative technological options (such as on-line 
interactive forums) for participation by the public who cannot 
otherwise attend meetings because of distance or work responsibilities.
    She should be someone who has a demonstrated love for experiencing 
nature in an ecologically respectful way.
    Thank you for taking into consideration this list of experiences 
and qualities when making your hiring decision for the Merced CMP 
project manager.
            Sincerely,
                                            Julia A. Olson,
                                            Counsel for Plaintiffs.

                              [Exhibit 6]

   Letter Submitted for the Record From The Honorable Tom McClintock
                     Congress of the United States,
                                  House of Representatives,
                                    Washington, DC, April 12, 2013.
Don Neubacker, Superintendent,
Attn: Merced River Plan,
P.O. Box 577,
Yosemite, CA 95389.
    Dear Mr. Neubacher:

    I am writing to provide comments on the National Park Service's 
(NPS) Draft Environmental Impact Statement (DEIS) for the Merced River 
Comprehensive Management Plan. Yosemite National Park is a national 
treasure that must be available for the American public to access and 
enjoy in the same manner that Americans have for decades, The 1864 act 
authorizing the original Yosemite land grant to the State of California 
stated that the ``premises shall be held for public use, resort, and 
recreation'' and ``shall be inalienable for all time.'' The draft plan 
in question directly contravenes the authorization, and I am firmly 
against NPS taking any action that would limit public access and 
enjoyment of Yosemite.

    Congress enacted the Wild and Scenic Rivers Act to protect free-
flowing rivers from dams and other development. Congress did not intend 
for NPS to use the act to justify limiting visitation, closing 
facilities and eliminating or curtailing historic uses that pre-date 
passage of the act and the Merced River designation under that act. In 
designating the Merced River, Congress understood that Yosemite 
National Park had a multitude of existing facilities that served river 
users, that Yosemite was widely visited and that the Merced River was 
extensively used for recreational pursuits by park visitors. See S. 
Rep. No. 96 100<SUP>th</SUP> Cong. 1<SUP>st</SUP> Sess. 1987 (the river 
is an ``outstanding and heavily used recreation resource in the areas 
of easy accessibility'').

    The Merced River's designation was based upon the river's value as 
a popular recreation resource in a highly-visited national park that 
was supported by the extensive facilities that existed at the time of 
the river's designation. Congress could not have intended for NPS to 
limit visitation or do away with the existing facilities and the 
recreational activities that support the values that caused the Merced 
River to be designated in the first place. Congress also did not intend 
its designation to drive planning of the larger park and force the 
closure of facilities that pre-date the act, enhance visitor 
experiences, and are located outside of the Merced River.

    It is equally troubling that NPS is proposing to close a number of 
facilities within Yosemite Village and reduce recreational Activities 
in the Yosemite Valley. NPS claims that camping will be increased to 
640 campsites but that figure is still less than the 830 campsites that 
existed before the 1997 flood. NPS is also proposing to close the Curry 
Village ice skating rink, bike rental facilities, snack stands, 
swimming pools, tennis courts, retail stores and horse stables and 
stock use. These facilities are not located in the Merced River, do not 
impede its flow, and many existed and historically served Yosemite 
visitors for decades prior to Congress passing the Act.

    It defies logic that NPS is proposing to close these facilities not 
because they degrade the Merced River, but instead because in NPS's 
eyes, these longstanding facilities do not benefit the river. What 
about the benefits that the American public will lose under NPS's 
proposal? NPS is also proposing to eliminate commercial rafting on the 
river. Like the existing facilities, commercial rafting is a service 
that was offered before the Merced River's designation under the act.

    I am also concerned about the proposed destruction of the Sugar 
Pine Bridge. This historic stone bridge was built in 1928 (40 years 
before enactment of the Wild and Scenic Rivers Act) and was entered 
into the National Register of Historic Places in 1977. The National 
Historic Preservation Act directs Federal agencies to preserve the 
historic properties under their control and the legislation designating 
the Merced River as Wild and Scenic does not require the bridge's 
destruction. I do not believe that the Park Service may simply ignore 
its responsibilities under the National Historic Preservation Act to 
protect the Sugar Pine Bridge and find no justification for robbing 
Yosemite of this iconic landmark.

    Finally, I am aware that NPS has received a number of requests for 
an extension of the public comment period on the Merced River plan. 
This is entirely understandable given that the plan and its exhibits 
are over 4,000 pages long, and that the comment period overlaps with 
the comment periods of two other major Yosemite Park plans. To ensure 
that the public has an adequate opportunity to provide its input, I 
concur that an extension is necessary, and therefore have requested 
that NPS extend its public comment period on the Merced River Plan by 
90 days to ensure full public opportunity to comment on this important 
issue.

    I submit these comments greatly troubled by the adverse and lasting 
effects this would have on Yosemite and the many visitors who enjoy the 
park.
            Sincerely,
                                            Tom McClintock.

                              [Exhibit 7)

                  ALTERNATIVE 1: NO ACTION ALTERNATIVE

                                overview
    Alternative 1, also known as the ``No Action Alternative,'' is 
required by NEPA implementing regulations and serves as a baseline from 
which to compare the action alternatives. Alternative 1 represents 
existing conditions in 2011, when the NPS completed research studies 
intended to assess conditions of the Merced River, and the continuation 
of current park management into the future. This alternative assumes 
that current trends in the conditions of natural and cultural resources 
and visitor experiences would continue, consistent with the management 
activities that are ongoing under currently approved plans. Future 
actions that would require additional planning and environmental 
compliance could still occur, independent of the Merced River Plan/
DEIS, but they are not considered part of the No Action Alternative for 
the purposes of conducting environmental compliance for the Merced 
River Plan.
    The overall management direction of Alternative 1 is based on 
current guiding management documents. The 1980 General Management Plan 
is the primary guiding document for park management, along with 
subsequent park-wide management documents such as the Wilderness 
Management Plan (1989), Concessions Services Plan (1992), Fire 
Management Plan (2004, with operational updates in 2009), and the 
Invasive Plant Management Plan (updated in 2010). In addition to 
following park-specific management policy, the NPS would also continue 
to comply with Federal laws, including the NPS Organic Act, the 
Endangered Species Act, the National Historic Preservation Act, the 
Clean Water Act, and all other Federal laws, directives, policies, and 
executive orders pertaining to park management.
    Under Alternative 1, the NPS would not adopt a comprehensive 
management plan to protect and enhance river values and address user 
capacity and land use in the corridor. The two prior versions of the 
river plan would not be in effect, because the courts determined that 
prior versions of the plan were invalid. Ecological restoration actions 
would be limited to those that would only require a Categorical 
Exclusion in compliance with NEPA, and those identified in the 2009 
Settlement Agreement. The river corridor would be \1/4\ mile on either 
side of the ordinary high-water mark because the WSRA provides for 
these default boundaries in the absence of agency designated 
boundaries. The segment classifications would be the same as those in 
the 1982 National Rivers Inventory in which the river was designated 
wild and scenic. There would no Section 7 Determination Process. The 
ORVs, as articulated in Yosemite's 1996 Draft Yosemite Valley Housing 
Plan, would continue to be protected and enhanced. There would be no 
established limit to the number of visitors or vehicles that would be 
allowed within the corridor. There would be no changes to existing 
facilities, transportation systems or services.
Summary of Current Actions and Issues Affecting River Values
    This section is intended to summarize (1) those actions that would 
protect and enhance river values that are already underway, and (2) 
issues that affect river values corridor wide. This section is not 
intended to summarize all the current management of resources in the 
river corridor; rather, it focuses on the actions that are directly 
related to issues identified in chapter 5. This provides a baseline for 
comparing the actions that might be taken under the action alternatives 
(Alternatives 2-6) to protect and enhance river values.
    The following conditions would continue throughout all segments of 
the Merced River corridor under Alternative 1.
                                 ______
                                 
    Mr. Bishop. Thank you.
    Mr. Asquith?

        STATEMENT OF BOB ASQUITH, GROVELAND, CALIFORNIA

    Mr. Asquith. Thank you for inviting me to talk. I 
appreciate your time here today. I have been visiting Yosemite 
with my family since the 1950s. Presently I live in one of the 
gateway communities and visit the park 25 to 30 times a year 
for the past 5 years. This is after retiring, spending 40 years 
in the hubbub of Silicon Valley. I have participated as a 
private citizen in Yosemite's planning processes during the 
Tuolumne River plan for about 3 years, and most recently, for a 
couple of years in the Merced River planning.
    I have been to at least a dozen meetings. some of the 
meetings have had more than 100 people attending them over this 
period of time. They have all been very open meetings, and I 
have been really impressed since the beginning meetings I went 
to with the Tuolumne River plan about how open the Park Service 
was, actually inviting people attending the meeting to play a 
planner for an hour and see what you would do with the park. 
Here are the challenges, what would you do?
    I am also amazed by the science of the park. They have been 
very thoughtful, and the Park Service has spent a lot of 
effort, not only with their agency, but the USGS, in conducting 
the science about the park and how to manage it.
    My impression of the meetings, that they have been well 
organized, they have been inclusive, they have listened to 
everybody, and painstakingly recorded the comments of everybody 
that was there, as well as their question.
    I am impressed that there is a very complicated nature, a 
juggling act, that takes place between the Organic Act, the 
Wild and Scenic Rivers Act, the Wilderness Act, the historic 
buildings in the park. It is amazing, with all of that and the 
court ruling, that they could even come up with a plan at all. 
It seems there is too much competition.
    One example that I have seen, as Director Jarvis mentioned, 
is if you look at the Merced River flowing down the middle of 
the valley for a minute, and look at a 1-year, 2-year, 5-year, 
10-year flood plain. Before a few many years, you are off at 
the size of the valley, and you have now included all of the 
real estate in the valley. So then you start the science of the 
rockfall analysis and start to come back from the walls of the 
valley, and you have some rather limited real estate that you 
have to deal with, and try to put all these amenities and all 
these competing interests in. It is quite a juggling act.
    Is the plan, as I read it, perfect? I doubt that. But it is 
a pretty good place to start, and a pretty good place to begin 
managing? I think so. I think there is a lot being made of 
relatively small issues. You know, 2 years ago I was in the 
Yosemite Valley, for example, and had watched when we had a 
heavy rainfall in California. The Merced River tore a new gorge 
in the valley, because the Sugar Pine Bridge constricted its 
flow. That gorge was about 20 feet deep and about 20 feet 
across, and it was pretty ugly stuff amidst what would have 
been a rather beautiful area.
    So, what I want to say in kind of conclusion is that as we 
look at some of these amenities, and we are talking about we 
need to move this and what do we do with that and so forth, 
remember that a lot of the activity that doesn't take place, a 
lot of the camping that doesn't take place, a lot of the 
swimming and swimming pools that doesn't take place in the 
valley will take place in the gateway communities. I live in 
one. So, it is not lost forever. It is displaced into an area 
that really uses it. Most of the gateway communities are in 
poorer counties in California, so the business would be welcome 
in those communities.
    I, for one, think the Park Service has done a remarkable 
job of navigating through these competing laws and issues, and 
I think that this panel, this Committee, should look at the 
plan and not make many changes to it.
    And I have a yellow light. That is before the red light, 
I'm finished.
    [The prepared statement of Mr. Asquith follows:]
        Prepared Statement of Bob Asquith, Groveland, California
    Good morning.
    I thank this Committee for inviting me to testify about Yosemite 
National Park, one of our great national treasures. Yosemite has become 
a very personal treasure since I began traveling to Yosemite and 
camping in its high country with my family since the 1950s. After 
working 40 years in Silicon Valley both in technical and sales and 
marketing positions, I retired to Groveland which is about a half an 
hour drive from Yosemite National Park. Throughout these many years, I 
have experienced many changes in the park.
    I travel into Yosemite National Park several times a month and, 
during the summer, several times a week. In fact, last Thursday--the 
Fourth of July--I was hiking in a little used and quiet part of 
Yosemite, enjoying its peace.
    I am on the Board of Directors of Yosemite Gateway Partners. This 
is a 501(c)(3) corporation that is a collaborative, non-advocacy 
organization that is devoted to supporting communications between 
Yosemite and its four gateway communities, specifically to, 
``collaborate on and address issues of regional importance to create 
sustainable cultural, natural and economic prosperity''.
    From my personal perspective, there are number of key issues facing 
the park and its management--none more important that creating a 
comprehensive plan to manage conflicting goals. Some important issues 
are traffic and congestion, development of accommodations, and 
balancing visitor use with protecting park resources.
    Shortly after I retired, I became involved with Yosemite's efforts 
in planning for the Tuolumne River Management plan. I attended more 
than 10 meetings for this plan over 3 years and was a welcome 
participant in process. During that time, work on the Merced River 
Management plan began. This followed a very similar process, beginning 
with a number of public meetings. Key park personnel, who were very 
open to suggestions and comments made by those attending, also attended 
all that I attended.
    From Merced River Plan scoping meetings through the most recent 
presentations of the draft EIS, key Yosemite staff were present, many 
times including Superintendent Neubacher; there was always a very open 
atmosphere, acceptance of questions in public dialog and a willingness 
to stay until the last question was answered.
    I also have attended at least 12 Merced River presentations and 
meetings. These include meetings at Yosemite Gateway partners, four a 
year, for nearly 2 years, plus many more in Gateway communities.
    In all cases, the park would start with a presentation of the 
status of the planning process, their current thinking, then opening 
the meeting to questions for all attendees. Each time, anyone who 
wanted to speak was allowed to do so, was listened to, and his or her 
comments recorded.
    The planning process is a juggling challenge of competing goals and 
interests. The Park has met this challenge in earnest. I believe they 
have created a workable plan out of at least five separate Federal 
statutes that often have competing goals.
    As an example, if you assumed that the Merced River flowed directly 
down the middle of Yosemite Valley, then you can map 1-year, 5-year, 
25-year, and 100-year floodplains thereby using almost all of the real 
estate in the Valley, right to the walls. If you then map the Rockfall 
hazards of the Valley walls, you start moving the lines back from the 
walls toward the Merced River, those zones cross each other in many 
places. The question becomes what asset do you place in either the 
floodplain or the rockfall hazard zone or both because they have 
overlapped. In short, there is limited real estate for everything and 
choices need to be made as to what to accommodate safely.
    I am extremely impressed with the planning process the Park has 
undertaken. Beginning with my first participation in the Tuolumne River 
plan and continuing with the Merced River plan, the Park has found 
multiple ways and forums for engaging people and helping with the 
planning process by listening to their comments and suggestions and 
incorporating them into this plan.
    I applaud the Yosemite National Park planners and management for 
developing a comprehensive, well thought out and vetted plan to manage 
these great resources, while considering tens of thousands of public 
comments over dozens of public meetings.
                                 ______
                                 
    Mr. Bishop. You got 40 seconds; you want to just 
filibuster?
    [Laughter.]
    Mr. Bishop. No, you can't, no. I thank you. I thank all of 
the witnesses for their testimony, for coming here. We will now 
turn to the Committee for questions.
    Mr. McClintock, if you would like to go first.
    Mr. McClintock. Former Congressman Tony Coelho is the 
author of the act that designated the Merced as Wild and 
Scenic. In a letter he vigorously opposes the plan. He 
categorically states that the legislation never contemplated 
the removal of existing amenities. What is your--and, Mr. 
Chairman, I would like to ask unanimous consent to enter that 
in the record.
    Mr. Bishop. No objection.
    [The information submitted by Mr. McClintock for the record 
can be found on page 31, Exhibit 2:]
    Mr. McClintock. And ask Mr. Jarvis for his response.
    Mr. Jarvis. Thank you, sir, for that question. I know that 
has been something that has been boiling out there.
    You know, we have to go with the plain language of the 
statute. And regardless of what Mr. Coelho indicates in his 
letter, the plain language of the statute does designate the 
entire length of the river through Yosemite Valley, as well as 
in Yosemite National Park. And so, unless there is a 
modification to that law, we have to apply that law as written.
    Mr. McClintock. Well, let me read exactly what he says. 
``The WSRA was never intended to apply to the Merced River 
within Yosemite National Park at all. The Merced River within 
Yosemite National Park is protected and regulated by the 
National Park Service and has never needed an overlay of 
inconsistent and confusing regulation. The WSRA designation was 
intended to apply to the Merced River outside the park to the 
west.''
    Ms. Brown--and one more question for Mr. Jarvis. Of the 
public comments that were received--and I understand more than 
30,000 have been received--what is the proportion in support of 
the plan?
    Mr. Jarvis. I was checking, because I didn't have that 
number off the top of my head. The superintendent indicates 
about 20,000 in support of the plan, of the 30,000.
    Mr. McClintock. In support of----
    Mr. Jarvis. Of the plan----
    Mr. McClintock [continuing]. Alternative number five, or 
any one of the alternatives?
    Mr. Jarvis. Alternative five.
    Mr. McClintock. All of alternative five?
    Mr. Jarvis. Most of the components of alternative five.
    Mr. McClintock. Ms. Brown, we are told that the NPS has 
done extensive public hearings on this proposal. You have 
attended those hearings. What is your impression of them?
    Ms. Brown. I disagree with that. I feel that the outreach 
to the visitors to Yosemite Park was inadequate. The draft 
Environmental Impact Statement was released in January of 2013. 
It is a 4,000-page document including exhibits, and that is 
sandwiched between two other plans, the Tuolumne River plan and 
the Mariposa Grove restoration plan. This is much more 
information than the average citizen can absorb and comment 
intelligently on in 90 days.
    The public meetings were not published in a timely manner 
to allow citizens to arrange for time off from work to attend 
them. And sometimes the times and dates were incorrect. I had 
to call the Park Service more than once on those.
    Mr. McClintock. Mr. Ouzounian, what was your impression of 
the hearings conducted by the National Park Service?
    Mr. Ouzounian. Well, I have been going to hearings for 33 
years, and I have seen a trend--one of confined to a box with 
court reporters that intimidate the respondents to where the 
public does not want to participate. This was supposed to be a 
special partnering, a friendlier environment, if you will. And 
certainly, the face of it, the book cover of it, was very, very 
friendly. However, the meat is in the decisions and the details 
that we see, and that is where we are discouraged, where we had 
lots of public comment to talk about----
    Mr. McClintock. Are you, in effect, saying that they left 
the impression the Park Service has already decided what it 
wants to do, and is simply going through the motions?
    Mr. Ouzounian. Well, the reason for a poor count, which I 
classify this exercise as a poor count of respondents, is that 
because people don't believe the Park Service. They have been 
to other planning meetings before, they don't see the results, 
they keep close to their home base. I asked for something 
between Oakhurst and San Diego and requested Orange County. We 
got Los Angeles at rush hour.
    Mr. McClintock. Ms. Brown, you actually wrote a letter to 
the superintendent, protesting the short shrift given to those 
in opposition to the plan. What was the response you received 
back?
    Ms. Brown. I didn't receive any response back from that. It 
just seemed, as time went on, the Park Service cared less and 
less about what we had to say. The time allowed for public 
comment and input was lessened, and more time was given to 
social interaction at the meetings.
    Mr. McClintock. Mr. Ouzounian, you mentioned the dramatic 
reduction in valley campsites relative to before the flood, 
from 872 down to 466. That is a 46 percent reduction. 
Alternative five would still lock in a 27 percent reduction 
from the pre-flood levels, and it would lock in a 31 percent 
reduction in overnight lodging. Is that contributing to the 
competition for spaces?
    Mr. Bishop. Let me give you 15 seconds to answer that. We 
will have another round of questions, though.
    Mr. Ouzounian. It is very difficult. The mix of the numbers 
cannot be compared. We are talking about walk-in sites versus 
affordable, family drive-in sites. You are either going to camp 
via a bus, if alternative five is passed, a bus with a family 
of four, five--how do you do that--or you are going to have to 
make parking lots that are going to blight the park.
    Like Camp Four, if you have ever been to Camp Four, there 
is a huge parking lot so you can walk your gear in. It is a 
terrible mismatch of----
    Mr. Bishop. We will come back to that and allow you to have 
a follow-up on that same question on the next round, as well. 
Thank you.
    Mr. Costa?
    Mr. Costa. Thank you very much. I think we have some common 
goals. That is that we want to be able to maintain access for 
Americans to enjoy one of the great national parks in our 
country.
    This plan is frustrating, because it is the third proposal 
over almost 20 years. I mean to put this in perspective. I know 
you are talking about most recently the current comment period, 
which some of us felt was too short and asked for an extension. 
I would have liked the extension to have been longer. But the 
fact is that, to put this in context, this has been ongoing for 
over 20 years now, and this is the third proposal that the park 
has come up with. I have issues with the current proposal that 
is before us.
    I hope this hearing today gives us the wherewithal before 
it has produced the--Mr. Jarvis, update us right now on the 
timeline. This fall you are going to--after this comment period 
has taken place, you have taken that information, then what is 
going to happen next?
    Mr. Jarvis. We are in the comments analysis period right 
now. The public comment period has closed. It was open for 4 
months, it is now closed, with those 30,000 comments. We are 
analyzing those comments, considering every one of them 
seriously----
    Mr. Costa. So the comments that these witnesses have made 
and others have made, are all part of the record, and they are 
all part of the consideration?
    Mr. Jarvis. Yes.
    Mr. Costa. And what happens next?
    Mr. Jarvis. Then next will be we hope to issue a final EIS, 
and then----
    Mr. Costa. And that would be at what time, November?
    Mr. Jarvis. It would be late this year, in this fiscal 
year. I mean in this calendar year of 2013. We want to----
    Mr. Costa. And you are working under a court decision under 
the ninth circuit----
    Mr. Jarvis. That is correct.
    Mr. Costa [continuing]. Right?
    Mr. Jarvis. Yes. And we----
    Mr. Costa. So do you agree with our other attorney friend, 
Mr. Hoss, that you have those other two options, 
notwithstanding the ninth circuit, which was, to quote him 
precisely, ``No-action alternative,'' or the second option, to 
eliminate the areas of recreation, which I suspect would take a 
piece of legislation, my guess would be?
    Mr. Jarvis. Well, we have to consider the entire body of 
law that applies to Yosemite National Park----
    Mr. Costa. No, but what are your legal advisors telling 
you? I just want to cut to the chase. Do you have a no-action 
alternative? Do you----
    Mr. Jarvis. There is a no-action alternative in here. And--
--
    Mr. Costa. And then what would happen if you took that?
    Mr. Jarvis. I think we would be challenged in court.
    Mr. Costa. You would be sued again. You are trying to avoid 
this 20-year marathon.
    Mr. Jarvis. We are looking for a sustainable decision here.
    Mr. Costa. OK. And the recreational suggestion, Mr. Hoss, I 
think requires legislation to change that. I don't think they 
can do that administratively.
    Mr. Hoss. May I address the comment that another lawsuit 
would result from the no-action alternative?
    Mr. Costa. You could, but I have some other questions that 
I want to ask. And I have been dealing with these issues for 
decades. And you are an attorney, I am not. But I think 
litigation is the bane of some people's existence.
    Mr. Hoss. I----
    Mr. Costa. So let's put it aside, OK?
    Mr. Hoss. What----
    Mr. Costa. I don't need that question answered. I am 
concerned about the access, the drive-ins and such, which is 
why I asked you to repeat the comments, Mr. Ouzounian.
    After the 1997 flood, then Congressman Radanovich 
attempted--and others supported his efforts--to provide 
restoration. We had a certain amount of access. And this is, I 
think, a real key, because not everybody is a hiker. And we 
want to be able to have access for families. The 872 in the 
camping sites, the 58 walk-in sites, and the 14 group sites, do 
you view that as an addition or a subtraction?
    Mr. Ouzounian. No, those are the totals.
    Mr. Costa. No, no, I am talking to Mr. Jarvis, Director 
Jarvis.
    Mr. Jarvis. OK. Wasn't sure.
    Mr. Costa. Is that an--I am sorry, I will get back to you.
    Is that an addition or a subtraction, post-1997 flood?
    Mr. Jarvis. The proposed alternative, alternative five, is 
a reduction in pre-flood campsite numbers. Now, I am not sure 
about those specific numbers. But the bottom line is that, 
because of the flood plain and our deep concern about 
rebuilding these kinds of sites and amenities in the flood 
plain itself that would be subject to being flooded again----
    Mr. Costa. So it is a cost--but, I mean, these are the most 
cherished sites there. I mean I get calls to my office, the 
people, they ask, ``Can you hold a site?'' I said, ``No, I 
can't hold a site.''
    But I mean the access, this lottery thing that he talked 
about, 1-minute access, I get calls and complaints from--I mean 
it is--I think you are in an impossible situation. Do the other 
alternatives--and my time has run out--provide additional 
access for those who don't have the ability to--who want to 
have access to the river, whether it is for an evening or for a 
4 or 5-day visit?
    Mr. Bishop. Why don't we--I will let you think about that 
one. We are going to have another round of questions. You can 
hit that one afterwards.
    Mr. Costa. Thank you.
    Mr. Bishop. Let me ask a couple of questions here. Let me 
finish follow-up on what Mr. Costa said, Director Jarvis.
    You said that when you are talking about adding and 
subtracting parking spaces, none of these are going to go back 
to the pre-flood numbers. How much does it cost to create a 
park campground and parking area? And even if it was flooded, 
how much would it actually cost to restore those? I am not 
asking a specific figure, but isn't that kind of a minimal 
expense that would take place there?
    Mr. Jarvis. Well, there are physical amenities that go in 
for camping. I mean, absolutely. There are picnic tables and 
restrooms and trails, and all of that is a physical asset that 
is subject to loss. We certainly saw that during the flood. And 
it is a poor investment, frankly, from a Federal investment 
standpoint, to put these things back in an area that we know we 
are going to lose. With that maintenance backlog of the 
National Park Service, that is just a bad investment.
    Mr. Bishop. How much did it cost you to dig them up and get 
rid of them?
    Mr. Jarvis. The flood took them out; we did not put them 
back. So----
    Mr. Bishop. The flood took out the parking areas, as well?
    Mr. Jarvis. The goal here was to move as much of the 
facilities that are fiscal investment out of the flood plain 
and not into the rockfall zone. That is the challenge that has 
been mentioned here and I would suggest that the park has gone 
to heroic efforts to find locations in the valley that are 
neither in the rockfall zone or in the flood zone to put new 
campsites.
    And so, alternative five actually proposes an additional 
174 sites over current, but not back to pre-flood. We 
couldn't----
    Mr. Bishop. Oh----
    Mr. Jarvis [continuing]. Find the----
    Mr. Bishop. What was the pre-flood number?
    Mr. Jarvis. Eight hundred and twenty-eight.
    Mr. Bishop. So you are going from 828 to?
    Mr. Jarvis. Six-forty.
    Mr. Bishop. Six-forty. A significant drop. All right.
    Can you tell me the purpose of destroying the Sugar Pine 
Bridge?
    Mr. Jarvis. The Sugar Pine Bridge is essentially a funnel 
for the Merced River. It constricts it. Any time you constrict 
a river like that during flood conditions, you accelerate its 
speed, you cause it to create significant erosion downstream. 
And so it is like turning a fire hose on. And the Sugar Pine 
Bridge, in particular, is the one bridge in the valley that is 
resulting in significant erosion to the banks downstream.
    Mr. Bishop. Does that help adjust or control the flow of 
the river?
    Mr. Jarvis. No, it is not a flood control device.
    Mr. Bishop. So the river wouldn't change its path if that 
bridge was taken out? And if it would, what is the next site 
that is in its path if the river were to change?
    Mr. Jarvis. Well, there is--the Sugar Pine Bridge itself, 
of all the bridges, is the most significant one of concern. And 
it has been the subject of study to determine that if we were 
to remove it, the river could function much more normally and 
not scour the banks and the river bottom.
    Mr. Bishop. Is there a chance it would change its 
direction?
    Mr. Jarvis. The river is a dynamic system, and it does move 
through the valley and has moved through the valley, 
historically.
    Mr. Bishop. I know. We had one discussion once again where 
some of your people were talking to the rivers and asking them 
what they were going to do, too.
    Ms. Brown, my time is running down. You said there was one 
scenic river that runs through Sacramento.
    Ms. Brown. Yes.
    Mr. Bishop. So if we were just to declare Sacramento as a 
wilderness area, wouldn't that help a lot of us?
    Ms. Brown. I don't think so.
    Mr. Bishop. Oh, all right. Let me get back to a real 
question. As you understand it, what is the purpose of that 
Wild and Scenic River designation? And is that consistent, in 
your mind, with what the Park Service is proposing?
    Ms. Brown. No, I don't think it is consistent. The Wild and 
Scenic Rivers Act is to keep it free flowing and wild. I would 
remind you that Yosemite Valley is designated recreational, and 
it should remain so.
    Mr. Bishop. Mr. Hoss, I will give you a chance of answering 
the question that you wanted to answer with Mr. Costa, if you 
can do it in 40 seconds.
    Mr. Hoss. Well, Mr. Jarvis believes that if the no-action 
alternative is involved, that will encourage litigation. I 
disagree totally with that, because settlement agreement is 
because the plaintiffs, and not the general public, they are 
out of the loop completely in this settlement. But they got 
what they bargained for. They have their comprehensive 
management plan. They have their attorneys paid. They have no 
right to dictate what the Park Service's alternatives are.
    Now, the much more likelihood of litigation, if the other 
alternatives are adopted, because there is no mediation process 
in that.
    Mr. Bishop. All right, thank you.
    Mr. Hoss. Anyway----
    Mr. Bishop. I appreciate that.
    Mr. Hoss. Yes, that is my answer.
    Mr. Bishop. My time is concluded. We are going to another 
round. Mr. McClintock--I am sorry, never get my--as old as I 
am. It is a sad state. Mr. McClintock, please.
    Mr. McClintock. That is your first senior moment. Thank you 
for sharing it with all of us, Mr. Chairman.
    Let me pick up, Mr. Hoss, where you left off. Were any of 
the user groups involved in this settlement agreement?
    Mr. Hoss. No. I mean----
    Mr. McClintock. And how much----
    Mr. Hoss. This is an agreement between this tiny group----
    Mr. McClintock. And how much did the Park Service agree to 
pay the litigants in this settlement?
    Mr. Hoss. Over $1 million.
    Mr. McClintock. Where did that money come from?
    Mr. Hoss. I assume it came from what was supposed to be 
prepared flood--who knows? It wasn't authorized.
    Mr. McClintock. And Mr. Jarvis has said that he would not 
favor the no-action alternative for fear of being sued by this 
same group. You have just said, however, that he can expect 
lawsuits regardless of what plan is determined. Is that 
correct?
    Mr. Hoss. That is the pattern that seems to have developed 
here. People don't agree on what happens to Yosemite. I think 
the worst thing that can happen is lawsuits. I am here to try 
to suggest how we might be able to get rid of them. And I think 
the best way is to adopt no action, let the Park Service go 
back to managing the parks. The whole planning process just 
encourages these lawsuits, because somebody is going to be 
unhappy, no matter what they do.
    Mr. McClintock. Doesn't the NPS position that ``We are 
going to choose number five, because otherwise this particular 
litigant is going to sue us,'' doesn't that put that particular 
litigant in command of the entire policy with respect to the 
National Park Service in Yosemite?
    Mr. Hoss. That is exactly what I am objecting to. It does 
do that. If you want to discourage litigation, the best way to 
do it is to adopt no action, in my view, otherwise you are 
letting the litigants drive what the Park Service does.
    Mr. McClintock. Well, do you think that the NPS should 
stand up and challenge the demands of this particular group, on 
behalf of all of the users of the park?
    Mr. Hoss. I believe so. I believe that is what the general 
public wants, at least from what I have heard of what they 
want. And they can go back to managing the park. They have the 
authority to do that under all kinds of legislation. And they 
won't be saddled with the possibility that somebody is going to 
sue them if they don't----
    Mr. McClintock. Mr. Ouzounian, should the campers be 
included in this settlement? Shouldn't the campers be 
represented by the NPS as much as it is representing the 
litigants in this case?
    Mr. Ouzounian. Well, I would assume so. I still maintain 
that your largest body of respondents to this plan are the 
campers that haven't been reached. They scream for supply, they 
scream for access, they scream for affordability. They want 
their families to enjoy the most precious summer vacation a 
kid, a grandpa, would ever want.
    Now, I don't know how a no-action plan meets that goal. 
Because if I had to trust today's Park Service with fulfilling 
our desire, it is not going to be my money on that. I think it 
is all going to just stay weeds.
    Mr. McClintock. So, again, what you are saying is they have 
already come to their decision, they are just coming up with 
the excuses to implement it.
    Mr. Ouzounian. After 33 years, sir, I believe that has been 
the MO.
    Mr. McClintock. Mr. Jarvis just said that the NPS has gone 
to ``heroic efforts'' to restore campgrounds destroyed by the 
flood. Would you agree with that?
    Mr. Ouzounian. With all due respect to that statement, my 
toes are cringing. I watched firepits, I watched picnic tables 
being heaped into piles at a cost. Congressman Radanovich asked 
me to do a study. He said, ``Would you evaluate it, you being a 
contractor? Would you evaluate the cost of repairing these 
flood-damaged campgrounds versus putting new campgrounds in,'' 
like going up in the high country----
    Mr. McClintock. After the flood, the then-superintendent of 
Yosemite said that this was actually a good thing, because it 
allowed for an unprecedented opportunity for positive change. 
Have you seen positive change after the floods of 1997?
    Mr. Ouzounian. No. Not only that, but BJ Griffin, without a 
process--that was the superintendent, I believe, at the time--
took it upon herself to seize a bad moment in time for the park 
and capitalize on it for some futuristic plan, which is what we 
are talking about today.
    Mr. McClintock. Which was to reduce the number of 
campsites, the number of parking spaces, and, therefore, the 
recreational opportunities afforded the public?
    Mr. Ouzounian. Well, correct, but under the guise of 
transportation, taking out the roads and----
    Mr. McClintock. Now, you said that Congress appropriated 
$17 million to restore these campsites and parking places. But 
you are also telling us that those campsites were not restored 
and those parking places were not restored. What happened to 
that money?
    Mr. Ouzounian. Well, according to staff at the Alternative 
Workshop, it is gone. They don't know where it went, they 
wouldn't tell me where it went. And I asked for an IG through 
Senator Feinstein to come on and find out. I do not know the 
results of his findings.
    Mr. McClintock. What do you anticipate the camping 
experience to be 10 years from now, if this plan is 
implemented?
    Mr. Ouzounian. It is like an endangered animal. It won't 
exist. There is no profit in camping.
    Mr. McClintock. Thank you.
    Mr. Bishop. Thank you. Mr. Costa?
    Mr. Costa. I talked on my last round about the things that 
we have in common, and I think one of those is trying to ensure 
that the amenities continue for future generations to come. 
Some of those amenities we have all talked about, having 
experienced over the years, that we have enjoyed the national 
park.
    The horseback riding I am concerned about, not only as it 
relates to days, but the potential precedent as it relates to 
use throughout the park system, and not only in Yosemite, but 
Kings Canyon. Last year there was an attempt to limit the 
amount of packing on Kings Canyon. We addressed that.
    But, Director Jarvis, there is concern among those who want 
to get to the further places. Is there an intention, a plan 
going on here with this NPS report to limit access of day use 
of horses, as well as backpacking?
    Mr. Jarvis. No, sir. We are strong supporters of--let me 
just emphasize that I personally, as director, am a absolute 
strong supporter of public use in our national parks. We have 
established, as one of our centennial goals in 2016 of four 
goals. One of them is connecting people to parks. We deeply 
believe that everyone should----
    Mr. Costa. All right, but just bottom line. I mean the 
intent--but the proposal four here would limit day use for 
horse activities.
    Mr. Jarvis. Let me try to explain what the context of this 
is, if I may. The point behind the proposal on stock use and 
bicycle rentals is the physical facility that supports that 
activity, is to remove that from the river corridor. So bike 
rentals require space. They require staff. They require 
storage. They require----
    Mr. Costa. At The Ahwahnee Hotel, when I have rented bikes 
from there, either we brought the bikes to the hotel, or we 
went down to the lodge.
    Mr. Jarvis. Well, we are looking at the possibility here--
and I have talked to the superintended about, like we have 
capital bike share here in Washington, something that is self-
operated--so what we are looking----
    Mr. Costa. It is not your intention to take bikes or horses 
out of the----
    Mr. Jarvis. No, what we are looking at are the physical 
facilities.
    Mr. Costa. How about the rafting?
    Mr. Jarvis. Same thing with rafting. The rafting would be--
to run commercial rafting in the valley, you have to store the 
rafts----
    Mr. Costa. What if Mr. McClintock and I forget to bring our 
rafts?
    Mr. Jarvis. There will be raft rentals right outside that 
you can arrange, make a phone call, they will deliver a raft to 
you. This is about storage of facilities inside the park.
    Mr. Costa. All right. Mr. Asquith, you attended many of 
these meetings, as you stated for the record. Did you think 
that you felt intimidated, or that it was an attempt to be non-
inclusive, in terms of the numerous meetings that I have seen 
here as part of the record that took place, and a lot of folks 
showed up?
    Mr. Asquith. Not at all. In fact, there were a lot of 
different mechanisms the Park Service has used to be inclusive. 
I recall one meeting that was attended by 130 people in 
Yosemite Valley where there were different scenarios put on 
large boards the size of the paintings here on the walls, and 
people were given colored dots. If you think this is a bad 
idea, go stick a red one on it. It is like your colored lights. 
If you think this is an OK idea, put a yellow one on it, and a 
really good one, put a green. So people were anonymous in 
voting for things that they wanted to do, 130-some people, and 
they had all the time to do it. They had an hour to go analyze, 
read them, and pick it. So not at all were they intimidating.
    Mr. Costa. And so what do you think is the biggest 
challenge facing the park?
    Mr. Asquith. Well----
    Mr. Costa. Since you decided to move from Silicon Valley to 
be right next to it.
    Mr. Asquith. I think, honestly, the park is crowded during 
the summer months.
    Mr. Costa. Yes, I pointed that out to begin with.
    Mr. Asquith. Well, and that is when everybody wants to 
come.
    Mr. Costa. Right.
    Mr. Asquith. So I, as a gateway resident----
    Mr. Costa. Might change----
    Mr. Asquith. No, I try to find parts of the park that 
aren't crowded.
    Mr. Costa. No, I invite people to come all the time. But I 
say, ``If you can avoid between Memorial Day and Labor Day, 
that is''----
    Mr. Asquith. But the challenge for the Park Service is how 
to manage that time, because that is the time a lot of--
particularly Americans, and in particular, Californians, are 
able to----
    Mr. Costa. Well, children are out of school and I mean, it 
is----
    Mr. Asquith. Exactly.
    Mr. Costa. We understand the challenge.
    Mr. Asquith. Well, and the other challenge, I think, is the 
physical real estate. I have----
    Mr. Costa. Nobody wants to go to an area that is 7 miles 
long and about a mile wide.
    Mr. Asquith. Well, it is----
    Mr. Costa. Conflicting areas of the flood plain, I mean, 
what a lot of people don't realize is those beautiful rocks 
that you come to admire are always evolving. And I have been 
there when you have these falls take place, and the crashing of 
these rocks. So you have a narrow band there, because the 
closer you are to those cliffs, I mean, the hazards--people 
have lost their lives, and there have been serious injuries as 
a result of that continuing erosion of the valley floor.
    Mr. Asquith. They record one major rockfall a week in 
Yosemite, and that----
    Mr. Costa. On the valley floor.
    Mr. Asquith. Yes, in the valley. So not catastrophic, but 
one significant rockfall a week. So I would not like to be 
camping in the place where the rockfall happens.
    Mr. Costa. I wouldn't, either.
    Mr. Bishop. Thank you. We will give you a chance to ask 
additional questions here, as well. Most of you have done a 
good job of answering the questions I had ahead of time when 
responding to everybody else here, so I only have a very, very 
few last questions.
    First of all, I would like to tell your people to come to 
Utah. We actually welcome you and we would be happy having the 
rest of you come up there. If Yosemite doesn't want you, come 
up to Utah.
    First question, though, Mr. Jarvis, the court decision, the 
latest one with the ninth circuit--not necessarily one of the 
greatest circuits we have, but the ninth circuit--was that 
settlement done under your watch, or was it done prior to you?
    Mr. Jarvis. That is a good question. That was while I was 
regional director, not while I was director.
    Mr. Bishop. All right. Thank you, I appreciate that. One of 
you mentioned that the idea of making this a Wild and Scenic 
River was added in the Senate. I don't know who testified to 
that. And that was--it was not done in the House version but in 
the Senate addition?
    Mr. Hoss. That is my understanding of the legislative 
history which I have looked at, is that the proposal to the 
House was Tony Coelho's, which excluded Yosemite Valley. The 
Senate said, ``Well, there is a management plan already in 
effect, 1980, which hasn't really been carried out. So let's 
just tack that on as an amendment so that they can do a plan.'' 
They were required to do a plan.
    Mr. Bishop. All right.
    Mr. Hoss. It was never intended to have any effect on 
existing development in Yosemite. And there is a record to 
support that, if anybody wants to challenge----
    Mr. Bishop. That is another good reason why never to trust 
anything that comes out of the Senate. And we have a couple of 
major bills this month. Good memory to have there.
    Mr. Hoss. An unintended consequence would be the way I 
would characterize----
    Mr. Bishop. The Senate is an unintended consequence, yes.
    Mr. Hoss. Well----
    Mr. Bishop. Mr. Ouzounian, if I could ask you one last 
question about the Upper and Lower River campgrounds, in your 
opinion, would it be--I mean the Park Service has talked about 
the cost of continuing repairing that. Would it be too costly 
to repair and use those campgrounds?
    Mr. Ouzounian. No. It would have been less costly had they 
seized the opportunity, like, $20 to one, for repair, $20 for 
new, under the Radanovich estimate I made at the time.
    Now, marginally, it is still less, because the 
infrastructure for the sewage system is still in place.
    Mr. Bishop. Go back to the premise of this being made here 
that it has a chance of being flooded again in the future, and 
therefore you will be constantly repairing that.
    Mr. Ouzounian. Gee, is that breaking news, sir? I mean I 
don't mean to be indignant, but it has always flooded. Let me 
ask you the basic question. Would you rather have fixed-roof 
structures flood, or campgrounds with picnic tables and 
barbeques to rearrange? I don't mean to be sarcastic, but it is 
very obvious. Campgrounds have withstood the test of time 
because they are flood-resistant.
    Mr. Bishop. I get the point. I appreciate it.
    Mr. Ouzounian. Thank you.
    Mr. Bishop. That is why I have already invited you to Utah. 
I don't have any other questions of these witnesses.
    Mr. McClintock, do you have a final few?
    Mr. McClintock. Just a few more. Ms. Brown, a bipartisan 
group of congressmen asked for an extension of the public 
comment period. The Park Service said it couldn't possibly push 
back the August deadline for a decision, and therefore could 
only extend the comment period by 12 days.
    Now, they are asking the deadline to be moved to December, 
but not for public comment. What is your reaction to that?
    Ms. Brown. Who has asked the----
    Mr. McClintock. The Park Service.
    Ms. Brown. For their decision?
    Mr. McClintock. They have asked that the decision be moved 
back to December.
    Ms. Brown. I don't think that is fair, when we were only 
given 12 days. They should not be allowed any kind of an 
extension.
    Mr. McClintock. Let me ask you this. The director says 
that--in fact, Director Jarvis, let me ask you this question. 
You said that you are bending over backwards to connect people 
to the parks. But, for example, part of this plan is to take 
out the snack shop. So, my question would be, where does a dad 
go to get ice cream for the kids on hot summer's day?
    Mr. Jarvis. There will be plenty of places still in the 
valley that they can get a ice cream----
    Mr. McClintock. How far from the existing facility?
    Mr. Jarvis. There are nodes of snack shops and food 
services throughout the valley, and we have a transportation--
--
    Mr. McClintock. How far?
    Mr. Jarvis. I don't know that answer. I can get you that 
data, if you like.
    Mr. McClintock. Well, a 30-minute, 30-second walk? A 1-
minute walk? How far?
    Mr. Jarvis. I don't know the answer to that. I mean 
everything is reasonable----
    Mr. McClintock. How about the grocery store? That is going. 
So where does a family go to get the extra charcoal briquettes 
for the barbeque?
    Mr. Jarvis. A grocery store is staying.
    Mr. McClintock. One of them is going. Mr. Hoss?
    Mr. Hoss. I believe that the housekeeping camp grocery 
store is going. Now, let me talk about the effect of that. 
People stay at the housekeeping camp. They need food and 
supplies. There is a store at Camp Curry. If you close the 
housekeeping camp facility, then the people get in their cars 
to drive to Camp Curry to buy the groceries, and they increase 
traffic congestion. That is asinine, in my opinion.
    Mr. McClintock. Is that also going to happen to the 
relocation of the bike rentals, the horseback rentals, and so 
forth?
    Mr. Hoss. The facilities where people buy things should be 
spread out over the valley, instead of concentrating them all 
in one place. You concentrate them all in one place----
    Mr. McClintock. Well, and how far will----
    Mr. Hoss [continuing]. You get traffic congestion.
    Mr. McClintock. Yes, and how far will people have to go if 
they want to rent a raft?
    Mr. Hoss. Well, I am not sure where they propose to 
relocate these facilities.
    Mr. McClintock. When I was there I was told Wawona is going 
to be the location----
    Mr. Hoss. Well, that would be 20 miles, at least an hour's 
drive. And to rent a raft in Wawona and drive 20 miles makes 
certainly no sense to me. There are certainly places in the 
valley, if they want to get them out of the river corridor, 
they could do that without taking them to Wawona.
    Mr. McClintock. Well, they are taking out the swimming 
pools. Where are kids going to go swimming in the summer----
    Mr. Hoss. The only time you can comfortably swim in the 
river is about 2 months in the summer. It is too cold or too 
dangerous----
    Mr. McClintock. But they are taking out the swimming pool. 
So where are the kids going to go?
    Mr. Hoss. Well, they don't have any place to swim.
    Mr. McClintock. Except the river.
    Mr. Hoss. Yes. Well, the river, you can't swim in the river 
for a great deal of the time.
    Mr. McClintock. Not safely, anyway.
    Mr. Hoss. That is right. So the river is no substitute for 
swimming pools.
    Mr. McClintock. Well, again, under this proposal it sounds 
like it is going to have to be. Mr. Ouzounian?
    Mr. Ouzounian. Well, I'm in favor of swimming pools, I 
don't see how they damage the river. But in this whole 
environmental concept, I would much rather the kids play in the 
swimming pool than play in the river. Just think of the 
logistics. I mean they have showers----
    Mr. McClintock. That choice is about to be taken away from 
them.
    Mr. Ouzounian. Well, so then when it is 95 degrees outside, 
guess where people are going to go? It is the same deal at Half 
Dome. I have got to do it. They are going to go to the river. 
Now, on a high-swift day, that could be very problematic and 
dangerous. But they are going to want to go in the river when 
it is 95 degrees.
    Mr. McClintock. Ms. Brown, how long has the Sugar Pine 
Bridge been there?
    Ms. Brown. I don't know the answer to that question, but I 
would be happy to find out.
    Mr. McClintock. Does it date back to the 1920s, I think 
1927 or 1928?
    Ms. Brown. The 1920s? That sounds correct.
    Mr. McClintock. Isn't it on the register of historic sites?
    Ms. Brown. Yes, it is, and----
    Mr. McClintock. And suddenly it is a great threat to the 
flow of the river, according to the Director, after all of 
these years.
    Ms. Brown. Correct.
    Mr. McClintock. What would removal of that bridge do to 
visitor access?
    Ms. Brown. To visitor access?
    Mr. McClintock. Yes.
    Ms. Brown. Well, they plan on putting big wood back into 
the river, as well. I don't think that is a good idea, because 
it will keep the visitors from getting to the river.
    Mr. McClintock. Can you give us some sense of community 
sentiment on this plan? I conducted a telephone conference with 
the folks that live in the adjoining communities, the gateway 
communities, the local folks. More than 25,000 people joined 
the call. More than 80 percent--in fact, substantially more 
than 80 percent were against this plan. So the local community 
sentiment, to me, seems to be very negative on it. What is your 
impression?
    Ms. Brown. I believe you are correct in that. My husband 
and I were in on that call and listened in. The majority of the 
people that called in were against the plan, and there were 
very, very few that were for it.
    Mr. McClintock. We actually did a keyed poll during that 
poll.
    Ms. Brown. Yes.
    Mr. McClintock. And it was more than 80 percent in 
opposition.
    Ms. Brown. Yes.
    Mr. Ouzounian. Sir, one thing that bridge supports is a 
road, and we have an issue of public egress if there is a 
tragedy some of the rockfalls. You take out that bridge, you 
take out the road. In fact, that is the case for all of the 
bridges.
    There is also a thing called engineering standards that can 
be implemented to mitigate the problem that Director Jarvis has 
talked about. No one is talking about engineering. Why is that 
off the table? You can engineer the bank reconstruction and 
help that river.
    Mr. McClintock. Just one quick question, if the Chairman 
will indulge me. Ms. Brown and Mr. Hoss, what is the impact 
going to be on tourism to all of the communities that depend on 
that Yosemite-bound tourism for their business?
    Mr. Hoss. Well, Ms. Brown should address that. I am not 
actually a resident of Mariposa; she is.
    Mr. McClintock. OK. Ms.----
    Ms. Brown. Yes, I have lived there for 42 years, and it 
will affect the local economies. If the recreational activities 
are eliminated, there will be less visitation. And our outlying 
gateway communities will suffer.
    Mr. McClintock. In fact, after the flood, visitation to the 
park dropped by about 25 percent, and didn't return to pre-
flood levels until very recently. Is that correct?
    Ms. Brown. That is correct.
    Mr. McClintock. And----
    Ms. Brown. We have all experienced that in our local 
gateway communities.
    Mr. McClintock. Would that, in part, be due to the fact 
that the number of campsites and parking spaces were 
dramatically reduced?
    Ms. Brown. Yes.
    Mr. Hoss. May I make one comment? Something that hasn't 
been brought up here yet. You have almost 150 years of 
recreational use. You have no real degradation of the river in 
that time. That is because of good management, to a great 
extent, but there is no actual degradation of the river. This 
is an issue that just comes up because of the enactment of 
something that was never intended to apply in the first place. 
There are other more important problems that the Park Service 
needs to deal with, than worrying about the degradation of the 
river.
    And I have to disagree categorically that the visitor 
services degrade the river. The visitor services are what the 
park is for, and what it should be preserved for.
    Mr. Bishop. Mr. McClintock, I----
    Mr. McClintock. Thank you so much for your indulgence.
    Mr. Bishop. I only have one real question, one sarcastic 
question and a statement left. Do you want to finish?
    Mr. McClintock. I just wanted to thank you for arranging 
this hearing today. I believe that we are at a significant 
crossroads in the purposes to which the national parks will be 
put, and whether we are going to continue to honor the promise 
that has been honored to the American people for the past 150 
years that public lands, in particularly Yosemite, will be 
there for the public use, resort, and recreation for all time, 
or whether it will be turned to a radically different purpose 
that is, at its core, exclusionary and elitist.
    Mr. Bishop. Thank you. I appreciate that. Let me ask a 
legitimate question.
    Ms. Brown, you said they were wanting to put big wood into 
the river. I don't understand what that means.
    Ms. Brown. Yes. They have plans to do some biotechnical 
engineering along the river banks. They are going to remove the 
riprap, which up to now has worked just fine to retain the 
banks and hold the river back from taking out the roads. They 
want to remove that riprap. It is already working. They want to 
replace it with plants. I have camped by rivers. I know what 
rivers can do. And they can create oxbows. The banks will move, 
especially if the bridges were removed.
    Mr. Bishop. So the vegetation is what you meant by big 
wood.
    Ms. Brown. No.
    Mr. Bishop. No.
    Ms. Brown. They will put in vegetation and then they will 
put big wood back into the river to make it more natural.
    Mr. Bishop. OK. I don't know if--thank you.
    Mr. Ouzounian. Landscaping.
    [Laughter.]
    Mr. Bishop. You explained it, and I am as dumb as I was 
before.
    Let me ask the sarcastic one to the Director, if I could. 
In one of your other areas, on a Wild and Scenic recreation 
area, river, you have banned any activity that involves 
paddles. I am assuming you are going to allow people to paddle 
in this river.
    Mr. Jarvis. Oh, yes.
    Mr. Bishop. Good. If you do it in the other one, I would be 
even happier, too, at the same time.
    Let me do the last one. I think this is maybe a shout out 
to the professionals. One of the things that I feel frustrated 
by here is much of what we are going through as a result, once 
again, of court litigation and the concept of suing and 
settling. The idea that the court should be a driver of policy 
that deals with our public lands is really a fairly recent 
paradigm shift. It goes back maybe five, six decades, at the 
most. And it is a paradigm shift.
    It didn't happen originally, the reason that we give so 
much precedence to this process right now is simply in the way 
we address our issues and the way we handle ourselves. It 
doesn't have to be that way. And it seems like every 70 years 
we do have paradigm shifts about public lands, how they are 
used, how they will be maintained. It is about time to look at 
this phenomenon of the role the courts play in coming up with 
policy toward our lands. And it is about time for another 
paradigm shift. And I feel that is--not only it is coming, but 
it is long overdue.
    Unless there is any last thing you want to say, Mr. 
McClintock, I want to thank the panel. Many of you have flown a 
great distance to be here. Well, all of you have flown a great 
distance to be here. Mr. Jarvis, we appreciate you taking the 
time to join us on this particular panel. I appreciate what you 
are doing within the Park Service and for all your testimony.
    If there is anything additionally you would like to add to 
the testimony, put it in writing, we will accept it. There may 
be some questions from Members--obviously not here, but there 
will be questions from other Members that could be sent to you. 
If there are, we would ask you to respond to those in a timely 
manner.
    With that, I have the last thing I need to say formally. 
Wish I knew what it was. Which I have to--oh, I am supposed to 
thank you for being here. I think I already did that. And ask 
you to answer questions. I think I already did that. So, 
without objection, we stand in adjournment.
    [Whereupon, at 11:46 a.m., the Subcommittee was adjourned.]

                                 [all]

</pre></body></html>
